No. 19-___

IN THE

REGENTS OF THE UNIVERSITY OF MINNESOTA,
Petitioner,
v.
LSI CORPORATION, ET AL.,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
PETITION FOR A WRIT OF CERTIORARI

Michael A. Albert
Charles T. Steenburg
Gerald B. Hrycyszyn
Stuart V.C. Duncan Smith
WOLF, GREENFIELD &
SACKS, P.C.
600 Atlantic Avenue
Boston, MA 02210

Kevin K. Russell
Counsel of Record
Charles H. Davis
Erica Oleszczuk Evans
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
kr@goldsteinrussell.com

QUESTION PRESENTED
States and state entities, including the University
of Minnesota, have sovereign immunity to suits by
private parties before courts and “court-like
administrative tribunals.” Fed. Mar. Comm’n v. S.C.
State Ports Auth., 535 U.S. 743, 761 (2002). At its core,
this immunity protects States’ prerogative to decide
when, and in what forum, to resolve their disputes
with private citizens. See, e.g., Pennhurst State Sch. &
Hosp. v. Halderman, 465 U.S. 89, 99 (1984). In the
patent context, this includes public universities’ right
to select the forum for adjudicating infringement and
invalidity disputes.
In 2011, Congress created an administrative
process for challenging a patent’s validity called “inter
partes review” or “IPR.” IPRs are “adversarial,
adjudicatory proceedings between the ‘person’ who
petitioned for review and the patent owner.” Return
Mail, Inc. v. U.S. Postal Serv., 139 S. Ct. 1853, 1866
(2019). The challenge is decided by the Patent Trial
and Appeal Board (PTAB), an “adjudicatory body
within the” Patent Office consisting of “panels of
administrative patent judges.” Oil States Energy
Servs., LLC v. Greene’s Energy Grp., LLC, 138 S. Ct.
1365, 1371 (2018). In this case, the Federal Circuit—
the only circuit with jurisdiction to decide the
question, see 35 U.S.C. § 141(c)—held that state
sovereign immunity does not apply to IPR proceedings,
a conclusion repeatedly rejected by the PTAB itself.
The question presented is:
Whether the inter partes review proceedings brought
by private respondents against the University of
Minnesota in this case are barred by sovereign immunity.

ii
PARTIES TO THE PROCEEDINGS
The parties to this proceeding include petitioner
Regents of the University of Minnesota and the
following respondents:
Avago Technologies U.S. Inc.
Ericsson Inc.
Gilead Sciences, Inc.
LSI Corporation
Telefonaktiebolaget LM Ericsson
RULE 29.6 STATEMENT
The University of Minnesota is a state entity
created by charter and perpetuated by Article XIII,
Section 3, of the constitution of the State of Minnesota.
The University is governed by a board of regents,
which constitutes a constitutional corporation called
Regents of the University of Minnesota.

iii
RELATED PROCEEDINGS
United States Court of Appeals for the Federal Circuit:
Regents of the University of Minnesota v. LSI
Corporation, Avago Technologies U.S. Inc.,
No. 18-1559 (June 14, 2019)
Regents of the University of Minnesota v. Ericsson
Inc., Telefonaktiebolaget LM Ericsson, Nos.
18-1560, 18-1561, 18-1562, 18-1563, 18-1564,
18-1565 (June 14, 2019)
United States Patent Trial and Appeal Board:
LSI Corporation and Avago Technologies U.S.
Inc. v. Regents of the University of
Minnesota, Case IPR2017-01068
Ericsson Inc. and Telefonaktiebolaget LM
Ericsson v. Regents of the University of
Minnesota, Cases IPR2017-01186, IPR201701197, IPR2017-01200, IPR2017-01213,
IPR2017-01214, IPR2017-01219
Gilead Sciences, Inc. v. Regents of the University
of Minnesota, Cases IPR2017-01712,
IPR2017-01753, IPR2017-02004, IPR201702005*

*

Intervenor Gilead Sciences, Inc. filed its own petitions before
the Patent Trial and Appeal Board. Those petitions are not,
however, before this Court because the Board stayed the
proceedings in Gilead’s case pending the Federal Circuit’s
decision in this case. Gilead was, however, allowed to intervene
in the proceedings before the Federal Circuit in this case and,
hence, is a respondent before this Court.

iv
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
PARTIES TO THE PROCEEDINGS .......................... ii
RULE 29.6 STATEMENT ........................................... ii
RELATED PROCEEDINGS....................................... iii
TABLE OF AUTHORITIES ....................................... vi
PETITION FOR A WRIT OF CERTIORARI .............. 1
OPINIONS BELOW .................................................... 1
JURISDICTION........................................................... 1
RELEVANT CONSTITUTIONAL, STATUTORY,
AND REGULATORY PROVISIONS .......................... 1
INTRODUCTION ........................................................ 1
STATEMENT OF THE CASE..................................... 4
I.

Legal Background ................................................. 4
A. Methods
For
Challenging
Patent
Validity ........................................................... 5
B. State Sovereign Immunity ............................. 8

II. Factual and Procedural Background .................. 10
REASONS FOR GRANTING THE PETITION ........ 15
I.

The Federal Circuit’s Decision Conflicts With
This Court’s Established Sovereign Immunity
And IPR Precedents ............................................ 15
A. IPRs Are Adversarial Proceedings
Commenced And Prosecuted By Private
Parties, And Therefore Barred By
Sovereign Immunity ..................................... 15

v
B. The Federal Circuit’s Reasons For
Reaching The Contrary Conclusion Do
Not Withstand Scrutiny ............................... 19
1. IPRs Are Adversarial Proceedings, Not
A Mode Of Independent Agency
Reexamination ........................................ 19
2. IPRs Are Not The Kind Of Federal
Agency Enforcement Action To Which
States Have Surrendered Their
Immunity ................................................ 25
3. IPRs Are Not In Rem Proceedings To
Which
Sovereign
Immunity
Is
Inapplicable ............................................ 28
II. The Question Presented Is Important And
Warrants Immediate Review .............................. 31
III. This Case Is An Excellent Vehicle ...................... 33
CONCLUSION .......................................................... 37
APPENDIX
Appendix A, Court of Appeals Decision ............. 1a
Appendix B & C, Patent Trial and Appeal
Board Decisions ................................................ 37a
Appendix D, Relevant Statutory and
Regulatory Provisions ...................................... 70a

vi
TABLE OF AUTHORITIES
Cases
A.L. Mechling Barge Lines, Inc. v. United States,
368 U.S. 324 (1961) ................................................ 21
Alden v. Maine,
527 U.S. 706 (1999) ........................................ passim
Aqua Prods., Inc. v. Matal,
872 F.3d 1290 (Fed. Cir. 2017) .............................. 23
Blonder-Tongue Labs., Inc. v.
Univ. of Ill. Found.,
402 U.S. 313 (1971) ................................................ 29
California v. Deep Sea Research, Inc.,
523 U.S. 491 (1998) .......................................... 30, 31
Celgene Corp. v. Peter,
931 F.3d 1342 (Fed. Cir. 2019) .............................. 24
Cent. Va. Cmty. Coll. v. Katz,
546 U.S. 356 (2006) .................................... 28, 29, 31
Coll. Sav. Bank v. Fla. Prepaid Postsecondary
Educ. Expense Bd.,
148 F.3d 1343 (Fed. Cir. 1998) .............................. 34
Coll. Sav. Bank v. Fla. Prepaid Postsecondary
Educ. Expense Bd.,
527 U.S. 666 (1999) ............................................ 9, 36
Cuozzo Speed Techs., LLC v. Lee,
136 S. Ct. 2131 (2016) .............................. 4, 6, 30, 32
Fed. Mar. Comm’n v. S.C. State Ports Auth.,
535 U.S. 743 (2002) ........................................ passim
Fla. Prepaid Postsecondary Educ. Expense
Bd. v. Coll. Sav. Bank,
527 U.S. 627 (1999) ...................................... 9, 11, 34

vii
Franchise Tax Bd. v. Hyatt,
139 S. Ct. 1485 (2019) ........................................ 8, 27
Gunter v. Atl. Coast Line R.R.,
200 U.S. 273 (1906) .................................................. 9
Hans v. Louisiana,
134 U.S. 1 (1890) .................................................... 16
Idaho v. Coeur d’Alene Tribe of Idaho,
521 U.S. 261 (1997) ................................................ 30
Lapides v. Bd. of Regents of Univ. Sys. of Ga.,
535 U.S. 613 (2002) .......................................... 12, 35
In re Magnum Oil Tools Int’l, Ltd.,
829 F.3d 1364 (Fed. Cir. 2016) ...................... passim
MedImmune, Inc. v. Genentech, Inc.,
549 U.S. 118 (2007) .................................................. 5
Naruto v. Slater,
2018 WL 3854051 (9th Cir. Apr. 13, 2018) ........... 23
Oil States Energy Servs., LLC v.
Greene’s Energy Grp., LLC,
138 S. Ct. 1365 (2018) .................................... passim
Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89 (1984) .............................................. 9, 34
Progressive Steelworkers Union v.
Int’l Harvester Corp.,
70 F.R.D. 691 (N.D. Ill. 1976) ................................ 23
Raygor v. Regents of the Univ. of Minn.,
534 U.S. 533 (2002) .................................................. 9
Return Mail, Inc. v. U.S. Postal Serv.,
139 S. Ct. 1853 (2019) .................................... passim
RPX Corp. v. Applications in Internet Time, LLC,
2015 WL 6157114 (P.T.A.B. Oct. 20, 2015) ........... 20

viii
RPX Corp. v. Applications in Internet Time, LLC,
2015 WL 7889318 (P.T.A.B. Dec. 4, 2015) ............ 20
RPX Corp. v. Applications in Internet Time, LLC,
2016 WL 3577873 (P.T.A.B. July 1, 2016) ............ 21
Saint Regis Mohawk Tribe v.
Mylan Pharm. Inc.,
896 F.3d 1332 (Fed. Cir. 2018) .................. 12, 13, 33
SAS Inst. Inc. v. Iancu,
138 S. Ct. 1348 (2018) .................................... passim
Tegic Commc’ns Corp. v. Bd. of Regents of the
Univ. of Tex. Sys.,
458 F.3d 1335 (Fed. Cir. 2006) ...................... passim
Tenn. Student Assistance Corp. v. Hood,
541 U.S. 440 (2004) .................................... 28, 29, 31
United States v. Texas,
143 U.S. 621 (1892) ................................................ 27
Vas-Cath, Inc. v. Curators of the Univ. of Mo.,
473 F.3d 1376 (Fed. Cir. 2007) .................... 4, 18, 26
Vt. Agency of Nat. Res. v. United States
ex rel. Stevens,
529 U.S. 765 (2000) ................................................ 21
Statutes
False Claims Act, 31 U.S.C. § 3729 et seq................. 21
Judiciary Act of 1789, ch. 20, 1 Stat. 73 ................... 27
Leahy-Smith America Invents Act,
Pub. L. No. 112-29, 125 Stat. 284 ...................... 6, 15
Shipping Act of 1984, Pub. L. No. 98-237,
98 Stat. 67 ........................................................ 16, 25
28 U.S.C. § 1254(1) ...................................................... 1
28 U.S.C. § 2201(a) .................................................... 21

ix
35 U.S.C. § 6................................................................. 6
35 U.S.C. § 141(c) ....................................................... 15
35 U.S.C. § 143............................................................. 8
35 U.S.C. § 200....................................................... 4, 10
35 U.S.C. § 303(a) ........................................................ 5
35 U.S.C. § 311............................................................. 6
35 U.S.C. § 311(a) ........................................................ 7
35 U.S.C. § 312............................................. 6, 7, 18, 20
35 U.S.C. § 313................................................... 6, 7, 18
35 U.S.C. § 314....................................................... 6, 18
35 U.S.C. § 314(a) ........................................................ 7
35 U.S.C. § 315............................................................. 6
35 U.S.C. § 315(a) ...................................................... 33
35 U.S.C. § 315(e) ...................................................... 29
35 U.S.C. § 316................................................. 6, 18, 22
35 U.S.C. § 316(a)(5) .................................................... 7
35 U.S.C. § 316(a)(6) .................................................... 7
35 U.S.C. § 316(a)(8) .................................................... 7
35 U.S.C. § 316(a)(9) .................................................... 7
35 U.S.C. § 316(a)(10) .................................................. 7
35 U.S.C. § 316(a)(13) .................................................. 7
35 U.S.C. § 316(e) ........................................................ 8
35 U.S.C. § 317............................................................. 6
35 U.S.C. § 317(a) ........................................................ 8
35 U.S.C. § 318............................................................. 6
35 U.S.C. § 318(a) ........................................................ 8
35 U.S.C. § 318(b) ........................................................ 8

x
35 U.S.C. § 319......................................................... 6, 8
Rules
Fed. R. App. P. 42 ...................................................... 23
Regulations
37 C.F.R. § 42.6(e) ...................................................... 18
37 C.F.R. § 42.51 ........................................................ 22
37 C.F.R. § 42.52 .................................................. 18, 22
37 C.F.R. § 42.53 .................................................. 18, 22
37 C.F.R. § 42.62 ........................................................ 18
37 C.F.R. § 42.63 .................................................. 18, 22
37 C.F.R. § 42.64 ........................................................ 22
37 C.F.R. § 42.65 .................................................. 18, 22
37 C.F.R. § 42.70 ........................................................ 18
37 C.F.R. § 42.100(a) ................................................. 18
37 C.F.R. § 42.107(b) ................................................. 20
37 C.F.R. § 42.108(c) .................................................... 7
77 Fed. Reg. 48,756 (Aug. 14, 2012) ...................... 8, 23
Other Authorities
Am. Intellectual Prop. Law Ass’n, 2017 Report of
the Economic Survey (2017) ................................... 32
The Federalist No. 39 (James Madison)
(C. Rossiter ed., 1961) .............................................. 8
H.R. Rep. No. 112-98, pt. 1 (2011)......................... 6, 20

xi
Anne S. Layne-Farrar, The Cost of Doubling Up:
An Economic Assessment of Duplication in
PTAB Proceedings and Patent Infringement
Litigation, Landslide, May-June 2018,
https://www.americanbar.org/groups/
intellectual_property_law/publications/
landslide/2017-18/may-june/cost-doubling-up/ ..... 29
Postgrant HQ Reporter, 2018 Analysis on PTAB
Contested Proceedings,
https://www.postgranthq.com/wp-content/
uploads/2018/10/PGHQ_Reporter_2018.pdf ......... 32

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Regents of the University of Minnesota
respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for
the Federal Circuit.
OPINIONS BELOW
The opinion of the court of appeals (Pet. App. 1a36a) is published at 926 F.3d 1327. The opinions of
the Patent Trial and Appeal Board (Pet. 37a-52a and
53a-69a) are not published but are available at 2017
WL 6517562 and 2017 WL 6517563.
JURISDICTION
The judgment of the court of appeals was entered
on June 14, 2019. Pet. App. 1a. This Court has
jurisdiction pursuant to 28 U.S.C. § 1254(1).
RELEVANT CONSTITUTIONAL, STATUTORY,
AND REGULATORY PROVISIONS
The relevant constitutional, statutory, and
regulatory provisions are reproduced in Appendix D to
this petition.
INTRODUCTION
“States’ immunity from suit” by private parties
“is a fundamental aspect of the sovereignty which the
States enjoyed before the ratification of the
Constitution, and which they retain today.” Alden v.
Maine, 527 U.S. 706, 713 (1999). This immunity is
particularly important to a land-grant research
university like the University of Minnesota in
managing litigation over its patents, because
intellectual property is at the core of the University’s
teaching, research, and service mission.
State

2
universities invest billions of dollars in public funds
into research that results in valuable patents, the
revenues from which are reinvested in the States’
research and educational programs. To recover the
value of its investments, a state university may be
required to sue private parties for patent
infringement. When it does, the university waives its
sovereign immunity to any invalidity defense the
defendant asserts in that action. See Tegic Commc’ns
Corp. v. Bd. of Regents of the Univ. of Tex. Sys., 458
F.3d 1335, 1340-31 (Fed. Cir. 2006). But unless and
until the state school files its infringement action, it
remains immune to private litigation seeking to
challenge its patents’ validity. See id. Sovereign
immunity thus affords public universities a measure
of control over when and in what forum a private
patent validity challenge will be heard.
In this case, the University of Minnesota filed
patent infringement suits against respondents in
federal court. The University was (and remains) fully
prepared to litigate the validity of its patents there.
Respondents, however, preferred a different forum.
They filed petitions for “inter partes review” (IPR) of
the patents’ validity before a panel of administrative
patent judges at the Patent and Trademark Office
(PTO).
The question in this case is whether the
University’s sovereign immunity barred that change
in forum for litigating the validity of the University’s
patents absent the University’s consent.
The Federal Circuit held that the University’s
consent was not required because, in the court’s view,
sovereign immunity does not apply to IPRs. Pet. App.
18a-28a. The panel acknowledged that this Court has

3
held that sovereign immunity extends to proceedings
before both courts and “court-like administrative
tribunals.” Fed. Mar. Comm’n v. S.C. State Ports
Auth., 535 U.S. 743, 761 (2002); see Pet. App. 18a-19a.
And it admitted that this Court has described IPRs as
“adversarial, adjudicatory proceedings between the
‘person’ who petitioned for review and the patent
owner.” Pet. App. 21a (quoting Return Mail, Inc. v.
U.S. Postal Serv., 139 S. Ct. 1853, 1866 (2019))
(alterations omitted).
But the Federal Circuit
nonetheless concluded that IPRs are “more like an
agency enforcement action than a civil suit by a
private party.” Id.; see also id. at 23a-24a (noting that
States have no immunity to suits brought by the
federal government).
In so deciding, the Federal Circuit rejected the
contrary view of the Patent Trial and Appeal Board
(PTAB or Board) itself, Pet. App. 41a-42a, 57a-58a,
and contradicted this Court’s repeated recognition
that IPRs are fundamentally adjudicative proceedings
between the patent challenger and the patent owner—
precisely the kind of proceedings to which sovereign
immunity applies.
The Federal Circuit’s decision is indisputably
consequential. It injures the sovereignty of every
State and subjects public universities to a new and
increasingly invoked form of litigation without their
consent. Those disputes implicate billions of dollars’
worth of intellectual property rights at the center of
some of the most important sectors of our economy. It
is unsurprising, then, that state universities and
fourteen States filed amicus briefs below attesting to
the importance of the question presented here and its

4
impact on state funding for scientific research.1 The
Department of Justice’s amicus brief likewise
professed that the issue has “cross-cutting significance
for the federal government.”2
Over the past few years, this Court has repeatedly
granted certiorari to decide questions regarding the
conduct of IPRs.3 The case for certiorari here is even
stronger. If States are to be subjected to IPRs without
their consent, it should be on the basis of this Court’s
considered judgment, not an unreviewed decision of a
lower court.
STATEMENT OF THE CASE
I.

Legal Background

States and state institutions like the University of
Minnesota are eligible to receive patents for their
employees’ inventions. See, e.g., Vas-Cath, Inc. v.
Curators of the Univ. of Mo., 473 F.3d 1376 (Fed. Cir.
2007). Indeed, it “is the policy and objective of the
Congress” that research institutions like the
University “use the patent system to promote the
utilization of inventions arising from federally
supported research or development.” 35 U.S.C. § 200.
Licensing such inventions permits a fair return on the

1

See, e.g., C.A. Amicus Br. of Indiana and thirteen other
states (States C.A. Amicus Br.); C.A. Amicus Br. of Ass’n of Pub.
& Land-Grant Univs.
2
3

U.S. C.A. Amicus Br. 1.

See Dex Media, Inc. v. Click-to-Call Techs., LP, No. 18-916
(certiorari granted June 24, 2019); Return Mail, 139 S. Ct. 1853;
Oil States Energy Servs., LLC v. Greene’s Energy Grp., LLC, 138
S. Ct. 1365 (2018); SAS Inst. Inc. v. Iancu, 138 S. Ct. 1348 (2018);
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131 (2016).

5
public’s research investments and reduces the amount
of further state funding needed to continue top flight
research programs at public universities. See States
C.A. Amicus Br. 4-7.
Once a patent is issued, there are several means
for a third party to challenge its validity. When the
patent is owned by a State, however, the methods for
raising a validity challenge are necessarily limited to
those that comport with States’ sovereign immunity.
A. Methods
Validity

For

Challenging

Patent

A patent’s validity may be challenged in court or
through an administrative proceeding at the Patent
Office.
Defense to Infringement Litigation.
An
alleged infringer may, if sued, raise an invalidity
defense and/or counterclaim in the litigation. See, e.g.,
Tegic Commc’ns Corp. v. Bd. of Regents of the Univ. of
Tex. Sys., 458 F.3d 1335, 1342 (Fed. Cir. 2006).
Declaratory Judgment Action. A potential
infringement defendant may file a free-standing
declaratory judgment action against the patent holder,
seeking a declaration of invalidity.
See, e.g.,
MedImmune, Inc. v. Genentech, Inc., 549 U.S. 118
(2007).
Ex Parte Reexamination. Since 1980, the
Patent Office has been authorized to inquire at any
time “whether a substantial new question of
patentability is raised by patents and publications
discovered by” the Office or cited to the Office by an
outside party. 35 U.S.C. § 303(a). If the Office decides
that there is, it will engage in a process called “ex parte
reexamination,” through which it will “reexamine the

6
patent and, if warranted, cancel the patent or some of
its claims.” Return Mail, 139 S. Ct. at 1859. Ex parte
reexamination “largely follow[s] the same process as
the initial examination, without further third-party
input.” Pet. App. 12a.
Inter Partes Reexamination (Repealed).
Around the turn of the last century, Congress created
an “inter partes reexamination” procedure.
See
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131, 2137
(2016). The new procedure “granted third parties
greater opportunities to participate in the Patent
Office’s reexamination proceedings as well as in any
appeal of a Patent Office decision.” Id.
Inter Partes Review. In 2011, Congress passed
the Leahy-Smith America Invents Act, Pub. L. No.
112-29, 125 Stat. 284, which, among other things,
replaced inter partes reexamination with the IPR
process at issue in this case. See 35 U.S.C. §§ 6, 31119; Return Mail, 139 S. Ct. at 1860.4
Congress intended the new legislation to
“convert[] inter partes reexamination from an
examinational to an adjudicative proceeding.” H.R.
Rep. No. 112-98, pt. 1, at 46-47 (2011). As a result, the
“inter partes review regime looks a good deal more like
civil litigation” than did its predecessor. SAS Inst. Inc.
v. Iancu, 138 S. Ct. 1348, 1353 (2018).

4

The Act also created a separate “post-grant review” process
and a “covered-business-method review” regime. See Return
Mail, Inc. v. U.S. Postal Serv., 139 S. Ct. 1853, 1860 (2019).
Collectively, the three new processes are referred to as “postissuance review proceedings.” Id. Only IPR is directly at issue in
this case.

7
An IPR thus “proceeds . . . with many of the usual
trappings of litigation.” SAS, 138 S. Ct. at 1353-54. A
private party commences the process by filing with the
Patent Office a petition identifying the challenged
claims and the grounds of unpatentability. See 35
U.S.C. § 311(a); see also SAS, 138 S. Ct. at 1355
(noting that Patent Office cannot commence an IPR on
its own initiative). The challenger serves the petition
on the patent holder, who may then file a preliminary
response. 35 U.S.C. §§ 312, 313.
Review is conducted by a three-member panel of
the PTAB, an “adjudicatory body within the PTO” that
consists of “panels of administrative patent judges.”
Oil States Energy Servs., LLC v. Greene’s Energy Grp.,
LLC, 138 S. Ct. 1365, 1371 (2018). On the basis of the
initial pleadings, the Board decides whether “there is
a reasonable likelihood that the petitioner would
prevail with respect to at least 1 of the claims
challenged in the petition.” 35 U.S.C. § 314(a).5 If so,
the Board may, at its discretion, institute a review. Id.
During an IPR, the “parties conduct discovery and
join issue in briefing and at an oral hearing.” SAS, 138
S. Ct. at 1354 (citing 35 U.S.C. § 316(a)(5), (6), (8),
(10), (13)). 6 The Board then decides whether the
petitioner has satisfied its burden of proving
unpatentability by a preponderance of the evidence,
either canceling the challenged claims or confirming
5

The Board was delegated this authority from the Director of
the PTO. See 37 C.F.R. § 42.108(c).
6

During this process, the patent holder may move to amend
the patent to meet the petitioner’s objections. 35 U.S.C.
§ 316(a)(9).

8
their patentability. 35 U.S.C. §§ 316(e), 318(a)-(b). In
so doing, the Board is limited to acting on the basis of
the contentions and evidence presented by the private
petitioner. See In re Magnum Oil Tools Int’l, Ltd., 829
F.3d 1364, 1381 (Fed. Cir. 2016).7
“A party dissatisfied with the final written
decision” of the Board “may appeal the decision” to the
Federal Circuit. 35 U.S.C. § 319. The Director of the
Patent Office is entitled to intervene in any appeal. Id.
§ 143.
B. State Sovereign Immunity
“An integral component of that ‘residuary and
inviolable sovereignty’ . . . retained by the States is
their immunity from private suits.”
Fed. Mar.
Comm’n v. S.C. State Ports Auth., 535 U.S. 743, 751
(2002) (FMC) (quoting The Federalist No. 39, at 245
(James Madison) (C. Rossiter ed., 1961)). 8 “The
preeminent purpose of state sovereign immunity is to
accord States the dignity that is consistent with their
status as sovereign entities.” Id. at 760. This
immunity also serves to protect the public treasury
and elected officials’ control over state budget
priorities. See Alden v. Maine, 527 U.S. 706, 750

7
The parties may agree to settle an IPR. 35 U.S.C. § 317(a).
If, after settlements, “no petitioner remains in the inter partes
review, the [PTAB] may terminate the review or proceed to a final
written decision.” Id. As a policy, the Board almost never
proceeds to a decision on its own “unless the Board has already
decided the merits of the proceeding” by the time the petitioner
withdraws. 77 Fed. Reg. 48,756, 48,768 (Aug. 14, 2012).
8

In ratifying the Constitution, however, States “consent[ed]
to suits brought against them by the United States in federal
courts.” Franchise Tax Bd. v. Hyatt, 139 S. Ct. 1485, 1495 (2019).

9
(1999). Sovereign immunity extends to state agencies
and “arms of the State,” such as the University of
Minnesota. See, e.g., Raygor v. Regents of the Univ. of
Minn., 534 U.S. 533, 535-36 (2002); Pet. App. 56a.
Congress has constitutional authority to abrogate
States’ immunity to suits by private parties only in
very limited circumstances, and no party has claimed
that Congress has attempted to abrogate state
immunity to IPRs. Cf. Fla. Prepaid Postsecondary
Educ. Expense Bd. v. Coll. Sav. Bank, 527 U.S. 627
(1999) (Congress lacks constitutional authority to
subject nonconsenting States to private patent suits).
Nor can Congress evade the limits on its
abrogation power by subjecting nonconsenting states
to private suits before “court-like administrative
tribunals.” FMC, 535 U.S. at 761 (noting “it would be
quite strange to prohibit Congress from exercising its
Article I powers to abrogate state sovereign immunity
in Article III judicial proceedings, but permit the use
of those same Article I powers to create court-like
administrative tribunals where sovereign immunity
does not apply”) (citation omitted).
A State may waive its immunity to suit by, among
other things, “voluntarily invoking [the court’s]
jurisdiction.”
Coll. Sav. Bank v. Fla. Prepaid
Postsecondary Educ. Expense Bd., 527 U.S. 666, 67576 (1999). Thus, when a State files suit against a
private party, it consents to a full disposition of that
particular action, including the adjudication of any
defenses before that court and the prosecution of any
appeal. See, e.g., Gunter v. Atl. Coast Line R.R., 200
U.S. 273, 284 (1906). But States do not thereby waive
their immunity to other actions. See Pennhurst State
Sch. & Hosp. v. Halderman, 465 U.S. 89, 99 (1984) (“A

10
State’s
constitutional
interest
in
immunity
encompasses not merely whether it may be sued, but
where it may be sued.”).
In the patent context, this means that States
cannot enforce their patents without submitting to an
adjudication of their patent’s validity in the
infringement suit, if such a defense is asserted, but
states retain the right to select the forum in which that
challenge will be made. See, e.g., Tegic, 458 F.3d at
1342 (state university’s filing of patent infringement
action did not waive its sovereign immunity to
defendant’s suit in a different court seeking
declaration that the underlying patents were invalid).
II. Factual and Procedural Background
1. The University of Minnesota is one of the
nation’s preeminent public teaching and research
institutions. The University spends approximately
$700 million on research annually, making it one of
the top ten largest public research institutions in the
country. C.A. J.A. 720. That research is funded in
large part through state and federal tax dollars.
Consistent with federal policy, see 35 U.S.C. § 200, the
University is charged with recouping some of that
public investment by patenting the fruits of its
research, licensing the patents, and reinvesting the
royalties into the school’s programs.
In this case, University research led to several
important patents relating to wireless communications
and computer technologies. See Pet. App. 3a. The
University subsequently filed patent infringement
suits in federal district court against respondents, all
large for-profit companies. In their answers, each
respondent challenged the patentability of the

11
patents. C.A. J.A. 1270-71, 1319, 1367, 1415, 1773,
1829-30.
2. Respondents also filed IPR petitions before the
PTAB, seeking to have their patentability challenges
adjudicated in the forum of their choice.
The
University moved to dismiss the IPR petitions as
barred by Minnesota’s sovereign immunity. Noting
“the exceptional nature of the issues presented,” the
Board expanded the original three-judge panel, adding
the Chief Judge, the Deputy Chief Judge, and two Vice
Chief Judges. Pet. App. 38a-40a.
The Board agreed with the University that
sovereign immunity generally applies to IPR
proceedings. Pet. App. 40a-42a. The Board reasoned
that IPRs are “similar to court proceedings inasmuch
as they involve adverse parties, examination of
witnesses, cross-examination by deposition, findings
by an impartial adjudicator, power to implement the
adjudicator’s decision, the ability of the adjudicator to
set a time for filing motions and for discovery, and
application of the Federal Rules of Evidence.” Id. at
42a. It acknowledged that there are some differences
as well. Id. at 42a n.2. But it was unpersuaded “that
those differences alone provide a sufficient basis to
conclude that ‘Congress had the power to compel
States to surrender their sovereign immunity’
wholesale in a proceeding that so closely resembles
court proceedings.” Id. (quoting Fla. Prepaid, 527
U.S. at 635). The Board noted that its conclusion was
consistent with the decision of multiple prior PTAB
panels, id. at 40a-41a (collecting citations), which
reflected the views of fifteen different judges.
The Board also held, however, that by filing
infringement suits against respondents in district

12
court, the University had waived its sovereign
immunity to the IPR proceedings subsequently
brought by respondents. Pet. App. 43a-47a. The
Board acknowledged that a “State’s waiver of
Eleventh Amendment immunity in one action does not
necessarily extend to a separate action, even if the
separate action involves the same parties and the
same subject matter.” Id. at 43a. It nonetheless
concluded that it “would be unfair and inconsistent”
for a State to “avail itself of the federal government's
authority by filing a patent infringement action in
federal court, but then selectively invoke its sovereign
immunity to ensure that a defendant is barred from
requesting an inter partes review of the asserted
patent from a different branch of that same federal
government.” Id. at 44a-45a (citing Lapides v. Bd. of
Regents of Univ. Sys. of Ga., 535 U.S. 613, 619-20
(2002)).
3. On appeal, the Federal Circuit rejected the
PTAB’s conclusion that sovereign immunity applied to
IPRs in the first place, largely on the basis of its
intervening decision in Saint Regis Mohawk Tribe v.
Mylan Pharmaceuticals Inc., 896 F.3d 1332 (Fed. Cir.
2018), cert. denied, 139 S. Ct. 1547 (2019), which held
that tribal sovereign immunity does not apply to
IPRs.9 The Saint Regis court reasoned that unlike the
kind of administrative adjudications to which
sovereign immunity properly applies, IPRs entail the
PTAB “acting as the United States in its role as a
superior sovereign to reconsider a prior administrative
9

See infra n.20 (discussing likely reasons for denial of
certiorari in Saint Regis).

13
grant and protect the public interest in keeping patent
monopolies within their legitimate scope.” Pet. App.
20a (quoting Saint Regis, 896 F.3d at 1329).10
To support its conclusion in this case, the Federal
Circuit pointed to “several factors” supposedly
showing that “IPR is more like an agency enforcement
action than a civil suit brought by a private party.”
Pet. App. 21a (quoting Saint Regis, 896 F.3d at 1327).
First, it “is the Director, the politically appointed
executive branch official, not the private party, who
ultimately decides whether to proceed against the
sovereign.” Id. (quoting Saint Regis, 896 F.3d at
1328). Second, “even if the petitioner or patent owner
elects not to participate during IPR, the Board can
continue to a final written decision.” Id. at 22a. Third,
“the IPR procedure is in other respects distinct from
ordinary civil litigation,” in that the “Federal Rules of
Civil Procedure do not apply,” a patent owner may
amend its patent claims in IPRs, and discovery and
live hearings “are more limited” in IPRs “than [in]
their civil counterparts.” Id.
Finally, the panel below opined that “state
sovereign immunity also does not apply to IPR
proceedings because they are in substance the type of
in rem proceedings to which state sovereign immunity
does not apply.” Pet. App. 29a-36a. The panel
acknowledged the “language in some Supreme Court
cases broadly describing the United States’ immunity
to in rem proceedings.” Id. at 30a. But it concluded

10

The Federal Circuit did not reach the question whether a
State waives its immunity to IPRs by filing an infringement suit.

14
that IPRs are “distinguishable,” principally because
they involve intangible property rights. Id. at 31a.
4. On remand, the PTAB stayed these cases
pending the Court’s ruling on this petition.

15
REASONS FOR GRANTING THE PETITION
In the eight years since Congress passed the
Leahy-Smith America Invents Act, Pub. L. No. 112-29,
125 Stat. 284 (2011), this Court has granted certiorari
five times to decide questions regarding the proper
conduct of inter partes review.
See supra n.3.
Whether States are subject to IPRs commenced and
prosecuted by private parties is a question of at least
equal importance. Although the question is incapable
of generating a circuit split, see 35 U.S.C. § 141(c), the
Federal Circuit’s decision conflicts with the consistent
view of the Patent Trial and Appeal Board, Pet. App.
40a-41a, on an issue of acknowledged importance to
States, the Federal Government, and patent litigants
throughout the nation. Because the decision cannot be
reconciled with this Court’s precedents or the
constitutional design, the petition should be granted
and the Federal Circuit’s decision reversed.
I.

The Federal Circuit’s Decision Conflicts
With This Court’s Established Sovereign
Immunity And IPR Precedents.

The decision below conflicts with this Court’s
longstanding sovereign immunity precedents as well
as its recent cases describing the fundamental
characteristics of IPRs.
A. IPRs Are Adversarial Proceedings
Commenced And Prosecuted By Private
Parties, And Therefore Barred By
Sovereign Immunity.
The “Framers thought it an impermissible affront
to a State’s dignity to be required to answer the
complaints of private parties in federal courts” or in

16
“court-like administrative tribunals.”
Fed. Mar.
Comm’n v. S.C. State Ports Auth., 535 U.S. 743, 76061 (2002) (FMC). That is precisely what happens
when a State is subject to a “full-blown adversarial
proceeding before the Patent Office” on the basis of a
private party’s IPR petition. Return Mail, Inc. v. U.S.
Postal Serv., 139 S. Ct. 1853, 1866 (2019).
1. In FMC, this Court granted certiorari to decide
“whether state sovereign immunity precludes
petitioner Federal Maritime Commission . . . from
adjudicating a private party’s complaint that a staterun port has violated the Shipping Act of 1984.” 535
U.S. at 747. The Court explained that it had long
presumed that “the Constitution was not intended to
‘rais[e] up’ any proceedings against the States that
were ‘anomalous or unheard of when the Constitution
was adopted.’” Id. at 755 (quoting Hans v. Louisiana,
134 U.S. 1, 18 (1890)) (brackets in original). The Court
therefore accorded “great significance” to the fact that
“formalized administrative adjudications were all but
unheard of in the late 18th century and early 19th
century.” Id.
To confirm its presumption that FMC
adjudications were “the type of proceedings from
which the Framers would have thought the States
possessed immunity,” FMC, 535 U.S. at 756, the Court
examined the “similarities between FMC proceedings
and civil litigation,” id. at 759.
The agency
proceedings were instituted at the request of a private
party through an initial pleading similar to a
complaint, to which the defendant filed an answer. Id.
at 757.
The parties then conducted discovery,
including depositions and demands for production of
documents. Id. at 758. The case was then heard by an

17
“impartial officer,” under procedural rules “quite
similar to those found in the Federal Rules of Civil
Procedure.” Id. at 757, 758. The officer then issued a
decision and ordered appropriate relief. Id. at 759.
More important than the sheer number of
parallels to civil litigation was the fact that the
administrative proceedings inflicted precisely the
harms sovereign immunity is intended to prevent.
“The preeminent purpose of state sovereign immunity
is to accord States the dignity that is consistent with
their status as sovereign entities.” FMC, 535 U.S. at
760. And it has been understood since the Founding
that it is inconsistent with that dignity for States to
“be summoned as defendants to answer the complaints
of a private person.” Id. (quoting Alden v. Maine, 527
U.S. 706, 748 (1999)). “Simply put,” the Court
concluded, if the Framers thought it an “impermissible
affront to a State’s dignity to be required to answer the
complaints of private parties in federal courts, we
cannot imagine that they would have found it
acceptable to compel a State to do exactly the same
thing before the administrative tribunal of an agency,
such as the FMC.” Id.
2. Like the administrative adjudications in FMC,
IPRs against States are a form of proceeding that was
“anomalous and unheard of when the Constitution
was adopted.”
FMC, 535 U.S. at 755 (citation
omitted). “In general, until 1980 the only way the
original patent grant could be challenged was in
patent litigation in district court.” Pet. App. 9a. IPRs
were not established until 2011. Return Mail, 139
S. Ct. at 1859-60. That IPRs are an historical anomaly
is a fact of “great significance,” presumptively
establishing that the Founding generation would not

18
have “found it acceptable to compel a State” to answer
to a private party before the PTAB. FMC, 535 U.S. at
755, 760.
That conclusion is confirmed by the similarities
between IPRs, civil litigation, and the administrative
proceedings this Court considered in FMC. As this
Court has recently described, IPRs allow “private
parties to challenge previously issued patent claims in
an adversarial process before the Patent Office that
mimics civil litigation.” SAS Inst. Inc. v. Iancu, 138
S. Ct. 1348, 1352 (2018). An IPR is commenced if, and
only if, the private party submits a petition which,
much like a complaint, sets forth allegations and a
claim for relief. Id. at 1355. The petition is served
upon the State, which can file a response. See 35
U.S.C. §§ 312-313; 37 C.F.R. § 42.6(e).
Based on these initial pleadings, the Board
decides whether to institute further proceedings. 35
U.S.C. § 314. If it does so, “the matter proceeds before
the Board with many of the usual trappings of
litigation.” SAS, 138 S. Ct. at 1353-54. Indeed, the
Board’s regulations call the post-institution phase a
“trial.” See, e.g., 37 C.F.R. § 42.100(a). As in FMC, the
“parties conduct discovery and join issue in briefing
and at an oral hearing.” SAS, 138 S. Ct. at 1354.
During the trial, the parties present exhibits and
witnesses and conduct cross-examinations. 35 U.S.C.
§ 316; 37 C.F.R. §§ 42.52-.53, 42.63, 42.65, 42.70. The
Federal Rules of Evidence apply with minor
alterations. 37 C.F.R. § 42.62.
Like the Federal Maritime Commission, the
PTAB plays the role of “impartial federal adjudicator,”
Vas-Cath, Inc. v. Curators of the Univ. of Mo., 473 F.3d
1376, 1382 (Fed. Cir. 2007), reviewing the parties’

19
claims and deciding whether the petitioner has
sustained its burden of proof. See In re Magnum Oil
Tools Int’l, Ltd., 829 F.3d 1364, 1380-81 (Fed. Cir.
2016).
In short, an IPR proceeding “walks, talks, and
squawks very much like a lawsuit.” FMC, 535 U.S. at
757 (citation omitted).
B. The Federal Circuit’s Reasons For
Reaching The Contrary Conclusion Do
Not Withstand Scrutiny.
The Federal Circuit identified a handful of
differences between IPRs and civil litigation which, it
concluded, make IPR less like the kind of proceeding
this Court addressed in FMC and more like other
kinds of proceedings to which (in the Federal Circuit’s
view) sovereign immunity does not apply. But its
reasoning does not withstand scrutiny.
1.

IPRs Are Adversarial Proceedings, Not
A Mode Of Independent Agency
Reexamination.

The Federal Circuit’s principal rationale was that
IPRs are akin to an ex parte reexamination in which
the Patent Office acts “as the United States in its role
as a superior sovereign to reconsider a prior
administrative grant.” Pet. App. 20a. That analogy is
refuted by recent decisions of this Court and even a
cursory examination of how IPRs are actually
conducted.
In establishing IPRs, “rather than create
(another) agency-led, inquisitorial process for
reconsidering patents, Congress opted for a partydirected, adversarial process.” SAS, 138 S. Ct. at

20
1355. Indeed, the whole point of IPRs was to move
from “an examinational to an adjudicative
proceeding.” H.R. Rep. No. 112-98, pt. 1, at 46-47
(2011).
Consequently, IPRs are “fundamentally
different” from “ex parte reexamination.” Return
Mail, 139 S. Ct. at 1865. The “reexamination process
is internal; the challenger is not permitted to
participate in the Patent Office’s process.” Id. at 1866
(emphasis added). In contrast, IPRs “are adversarial,
adjudicatory proceedings between the ‘person’ who
petitioned for review and the patent owner.” Id.
(emphasis added). In reexamination, the agency is
entitled to consider any issue or evidence it deems
relevant; in an IPR, it is restricted to addressing only
the theories and evidence submitted by the challenger.
See Magnum Oil, 829 F.3d at 1380-81.
The Board’s power to refuse to institute an IPR
does not change the fundamentally adversarial nature
of the proceeding. Contra Pet. App. 21a-22a. For one
thing, the institution decision does not occur until well
after the State has been “summoned as [a] defendant[]
to answer the complaints of private persons.” FMC,
535 U.S. at 760 (citation omitted). Under the statute,
the proceedings begin when a private party submits
an initial petition and serves the State, which has
three months to file a response. 35 U.S.C. § 312; 37
C.F.R. § 42.107(b). The patent holder is then subject
to potential discovery and other motion practice before
the Board decides whether to continue with further
proceedings on patentability. 11 Enduring even the
11

See, e.g., RPX Corp. v. Applications in Internet Time, LLC,
2015 WL 6157114 (P.T.A.B. Oct. 20, 2015); id., 2015 WL 7889318

21
preliminary proceeding is the kind of costly indignity
from which sovereign immunity is intended to shield
the States.
Even if the institution decision were made earlier,
it would make no difference. No one could reasonably
argue, for example, that Congress could evade the
limits on its power to abrogate sovereign immunity by
simply giving district courts or ALJs discretion
whether to hear suits by private parties against
States. For example, private parties commonly file
declaratory judgment actions seeking to adjudicate a
patent’s validity. The Declaratory Judgment Act gives
courts discretion whether to provide such relief, 28
U.S.C. § 2201(a), an authority the court may exercise
at the outset of the litigation to decline to hear the
case. See, e.g., A.L. Mechling Barge Lines, Inc. v.
United States, 368 U.S. 324, 331 (1961). Yet even the
Federal Circuit recognizes that states are immune
from declaratory judgment actions despite this
discretion. See Tegic Commc’ns Corp. v. Bd. of Regents
of the Univ. of Tex. Sys., 458 F.3d 1335, 1339-40 (2006).
Likewise, this Court has expressed “serious doubt”
that the False Claims Act, 31 U.S.C. § 3729 et seq.,
would be constitutional if construed to allow private
qui tam actions against States, even though such suits
proceed only at the sufferance of federal officials who
are empowered to take over the case (or to intervene
and dismiss it). See Vt. Agency of Nat. Res. v. United
States ex rel. Stevens, 529 U.S. 765, 787 (2000).

(P.T.A.B. Dec. 4, 2015); id., 2016 WL 3577873 (P.T.A.B. July 1,
2016).

22
Moreover, nothing about the Board’s power to
approve or decline institution can erase the fact that
“Congress chose to structure a process in which it’s the
petitioner, not the Director, who gets to define the
contours of the proceeding.” SAS, 138 S. Ct. at 1355.
As noted, the statute “doesn’t authorize the Director to
start proceedings on his own initiative.” Id. And
“[m]uch as in the civil litigation system it mimics, in
an inter partes review the petitioner is master of its
complaint and normally entitled to judgment on all of
the claims it raises.” Id. At the same time, the Board
lacks discretion to consider grounds of unpatentability
not raised by the petition. See id. at 1356-57. And in
ruling on the challenges the petitioner does raise, the
Board is limited to deciding whether the petitioner has
satisfied its burden of proof, on the basis of the
evidence and arguments the petitioner presented; it
may not invalidate a patent claim on any other
ground, even if the Board comes to believe the patent
is defective for reasons the petitioner failed to give.
See, e.g., Magnum Oil, 829 F.3d at 1381 (Board may
not “raise, address, and decide unpatentability
theories never presented by the petitioner”). Likewise,
the Board has no role in the development of the
evidence except as an arbiter of disputes between the
parties. See 35 U.S.C. § 316; 37 C.F.R. §§ 42.51-.53,
42.63-.65.
The Federal Circuit made much of the fact that
the Board is entitled to continue a proceeding even if
the parties stop participating. Pet. App. 22a. But the
Board can only exercise this power if the private
petitioner has already subjected the State to the
indignities and burdens of suit before dropping the
case. Moreover, as a practical matter, the Board will

23
never be in a position to continue a case unless the
litigation is effectively completed when the petitioner
withdraws. The Board has no tools or authority to
develop evidence on its own. And the Board is still
limited to deciding the challenges raised by the
petitioner, on the basis of the arguments and evidence
the petitioner presented. See Aqua Prods., Inc. v.
Matal, 872 F.3d 1290, 1311-12 (Fed. Cir. 2017) (en
banc); Magnum Oil, 829 F.3d at 1380-81. As a
consequence, the Board has explained that it “expects
that a proceeding will terminate after the filing of a
settlement agreement, unless the Board has already
decided the merits of the proceeding.” 77 Fed. Reg.
48,756, 48,768 (Aug. 14, 2012) (emphasis added). That
possibility hardly transforms IPR into an agencydirected examination. Indeed, federal courts have
similar authority. See, e.g., Naruto v. Slater, 2018 WL
3854051, at *2 (9th Cir. Apr. 13, 2018) (appellate court
retains power to decide case even after parties settle
and move to dismiss under Fed. R. App. P. 42);
Progressive Steelworkers Union v. Int’l Harvester
Corp., 70 F.R.D. 691, 693 (N.D. Ill. 1976) (“Voluntary
dismissal will be denied if the merits of a case have
been considered or if issue has been joined.”). Yet
sovereign immunity indisputably applies in those
courts.
The Federal Circuit also suggested that a State
could avoid the indignity of being hauled before the
Board to answer the claims of a private party by
simply refusing to participate in the proceeding. Pet.
App. 35a. But this Court rejected that argument in
FMC, recognizing that forgoing the administrative
process would “substantially compromise” the State’s
ability to “defend itself at all.” 535 U.S. at 762. So,

24
too, here. Absent a response from the State, the PTAB
is far more likely to find that the petitioner has met its
burden of proof and may even issue a default
judgment. See Pet. App. 35a n.6; Magnum Oil, 829
F.3d at 1376 n.1 (even if not required to by the statute,
a patent holder “‘would be well advised to introduce
evidence’ on the asserted challenge” in IPRs) (citation
omitted). And unless it participates before the PTAB,
the State is effectively precluded from seeking review
of its decision before an Article III court. See Celgene
Corp. v. Peter, 931 F.3d 1342, 1356 (Fed. Cir. 2019)
(Federal Circuit review of PTAB decision generally
limited to arguments raised by the parties before the
Board); FMC, 535 U.S. at 762-63 (similar restriction
on judicial review of FMC orders). Accordingly, to say
that the statute “does not coerce a State to participate
in an [IPR] adjudication would be to blind ourselves to
reality.” 535 U.S. at 763-64.
The Federal Circuit further insisted that the
similarities between IPRs and civil litigation “do[] not
disturb the basic purpose of the proceeding, namely to
reexamine an earlier agency decision.” Pet. App. 21a
(internal quotation marks omitted). But the
availability of sovereign immunity turns on the nature
of the proceeding, not its purposes. See FMC, 535 U.S.
at 756-59. And this Court has explained that although
IPRs and ex parte reexamination “share [a] common
purpose,” they pursue that purpose “in meaningfully
different ways.” Return Mail, 139 S. Ct. at 1865-66.
For the same reason, the panel’s reliance on Oil
States is inapt. See Pet. App. 23a-24a. The question
there was whether IPR violates Article III by allowing
administrative patent judges to decide a question the
Constitution reserves to federal courts. See 138 S. Ct.

25
at 1370. The answer to the question turned on the
nature of the rights granted by a patent (i.e., whether
they are “public rights”), id. at 1372-73, a
consideration orthogonal to the sovereign immunity
inquiry. See FMC, 535 U.S. at 754 (assuming nature
of the rights at issue permitted agency adjudication,
but finding that this “assumption, however, does not
end our inquiry”); id. at 754-61 (going on to examine
the nature of the proceedings).12
2.

IPRs Are Not The Kind Of Federal
Agency Enforcement Action To Which
States Have Surrendered Their
Immunity.

Shifting metaphors, the Federal Circuit also
suggested that even if IPRs are more like adversarial
adjudications
than
internal
Patent
Office
reexaminations, they should be seen as adjudications
“between the United States and the patent owner,”
Pet. App. 24a, rather than between the private
petitioner and the State. And because States have
surrendered their sovereign immunity to suits by the
United States, the court reasoned, they should not be
immune to a suit prosecuted by the PTO before a PTO
tribunal. Id. 19a, 24a. That argument fails as well.
In FMC, this Court rejected the nearly identical
claim that proceedings under the Shipping Act of
198413 before the Federal Maritime Commission were
12

Similarly irrelevant are the handful of other differences
between IPRs and civil litigation the panel noted. Pet. App. 22a
(citing, e.g., more limited nature of discovery). None changes the
fact that IPRs are at their core a form of private litigation before
a court-like tribunal.
13

Pub. L. No. 98-237, 98 Stat. 67.

26
tantamount to suits against the State by the federal
government. A suit falls within the scope of States’
consent to suit by the United States only if the suit “is
commenced and prosecuted against a State in the
name of the United States by those who are entrusted
with the constitutional duty to ‘take Care that the
Laws be faithfully executed.’” Alden, 527 U.S. at 755
(emphasis added) (citation omitted).
The Court
explained in FMC that the “prosecution of a complaint
filed by a private party with the FMC is plainly not
controlled by the United States, but rather is
controlled by that private party.” 535 U.S. at 764. The
“only duty assumed by the FMC, and hence the United
States, in conjunction with a private complaint is to
assess its merits in an impartial manner.” Id. As a
result, “the United States plainly does not ‘exercise . . .
political responsibility’ for such complaints, but
instead has impermissibly effected ‘a broad delegation
to private persons to sue nonconsenting States.’” Id.
(quoting Alden, 527 U.S. at 756) (ellipses in original).
The same is true of IPRs. As discussed, it is the
private petitioner, not the Board, who commences and
prosecutes the action. The PTAB members act as
“impartial federal adjudicators,” Vas-Cath, 473 F.3d at
1382, restricted to deciding the challenges petitioners
raise, see Magnum Oil, 829 F.3d at 1380-81. The
Board’s ability to cut the proceeding short by refusing
initiation does not transform the Board from a panel
of judges into a plaintiff or prosecutor, any more than
this Court’s grant of certiorari renders it a party to the
case or politically accountable for the actions of the
petitioner.
At any rate, under the plan of the convention,
states “consent[ed] to suits brought against them by

27
the United States in federal courts.” Franchise Tax
Bd. v. Hyatt, 139 S. Ct. 1485, 1495 (2019) (emphasis
added). They did not consent to actions brought
against them by the federal government in federal
agencies. How could they? Adversarial agency
adjudications are a product of the “vast growth of the
administrative state” the Framers “could not have
anticipated.” FMC, 535 U.S. at 755. The court of
appeals cited no founding-era examples of States being
subject to suit by the federal government in any forum
other than a federal court. In fact, the First Congress
restricted jurisdiction over disputes between the
United States and States not just to federal courts, but
to this Court. See Judiciary Act of 1789, ch. 20, § 13, 1
Stat. 73, 80. “Such exclusive jurisdiction was given to
this court because it best comported with the dignity
of a State, that a case in which it was a party should
be determined in the highest, rather than in a
subordinate judicial tribunal of the nation.” United
States v. Texas, 143 U.S. 621, 643 (1892). States surely
would not have contemplated that the United States
could elect, as an alternative, to haul a State before an
administrative tribunal in which a federal agency
served as both plaintiff and judge. Cf. Return Mail,
139 S. Ct. 1867 (noting the “awkward situation” that
would arise from forcing a patent owner “to defend the
patentability of her invention in an adversarial,
adjudicatory proceeding initiated by one federal
agency . . . and overseen by a different federal
agency”).14

14

FMC did not hold otherwise. Contra Pet. App. 24a; see
Franchise Tax Bd., 139 S. Ct. at 1495 (citing FMC, 535 U.S. at

28
3.

IPRs Are Not In Rem Proceedings To
Which
Sovereign
Immunity
Is
Inapplicable.

Turning to yet another analogy, the panel argued
that even if it was wrong about everything else,
sovereign immunity still would not apply to IPRs
“because they are in substance the type of in rem
proceedings to which state sovereign immunity does
not apply.” Pet. App. 29a. The panel acknowledged
that there is no general rule holding sovereign
immunity inapplicable to in rem proceedings. Id. at
29a-31a. Indeed, this Court has repeatedly held that
sovereign immunity bars a variety of private in rem
suits. See id. (collecting cites). The panel nonetheless
purported to identify a subset of in rem proceedings to
which sovereign immunity is inapplicable, settling on
suits that “do[] not implicate ownership of real
property or the state’s ability to regulate within its
own domain.” Id. at 31a. The panel further claimed
that IPRs are “closely akin” to “proceedings where the
Supreme Court has concluded sovereign immunity is
not a bar.” Id. at 33a (citing Tenn. Student Assistance
Corp. v. Hood, 541 U.S. 440 (2004)); see id. at 29a
(citing Cent. Va. Cmty. Coll. v. Katz, 546 U.S. 356
(2006)). This analysis fails twice over.
First, IPRs are in personam, not in rem. See
Return Mail, 139 S. Ct. at 1866 (IPRs are “adversarial,
adjudicatory proceedings between the ‘person’ who
petitioned for review and the patent owner”) (emphasis
added). A defining feature of in rem suits—and the
752, as establishing that “the only forums in which the States
have consented to suits . . . by the Federal Government are Article
III courts”).

29
one on which this Court’s decisions in Katz and Hood
turned—is that jurisdiction is exercised over a specific
property in order to “determine all claims that anyone,
whether named in the action or not, has to the
property or thing in question.” Hood, 541 U.S. at 448
(citation and brackets omitted). Accordingly, a true in
rem proceeding is “one against the world.” Id.
(citation omitted). It is the universal application of the
judgment that justifies the fiction that the proceeding
is against the property, rather than against the
sovereign or any other party.
That essential feature is missing in IPRs. If the
Board confirms the patentability of the patent, that
judgment does not settle the question finally and for
everyone. It bars only the petitioner from making the
same claim in future proceedings. 35 U.S.C. § 315(e).
The rest of the world is free to raise the same challenge
to the patent before the PTAB or a court, see id., and
others frequently do.15 True, if the PTAB declares a
patent unpatentable, that conclusively precludes the
owner from asserting the patent against anyone. But
the same is true of any in personam suit challenging
patent validity. See Blonder-Tongue Labs., Inc. v.
Univ. of Ill. Found., 402 U.S. 313, 349-50 (1971).
Notably, the panel was unable to identify any
other case in which a dispute over entitlement to a
patent or other government franchise has been treated
as an in rem proceeding for any purpose, much less as

15

See Anne S. Layne-Farrar, The Cost of Doubling Up: An
Economic Assessment of Duplication in PTAB Proceedings and
Patent Infringement Litigation, Landslide, May-June 2018,
https://www.americanbar.org/groups/intellectual_property_law/
publications/landslide/2017-18/may-june/cost-doubling-up/.

30
a ground for setting aside sovereign immunity. And
even if the panel were right that IPRs are “akin to” in
rem proceedings in some respects, Pet. App. 33a
(emphasis added), States’ sovereign immunity cannot
be divested through loose and manipulable analogies.
To say that an IPR is both akin to, and unlike, an in
rem suit—or that it is a “hybrid proceeding,” Cuozzo
Speed Techs., LLC v. Lee, 136 S. Ct. 2131, 2144
(2016)—is to admit that IPR is a form of action that
was “anomalous and unheard of when the
Constitution
was
adopted”
and
therefore
presumptively subject to sovereign immunity’s bar.
FMC, 535 U.S. at 755 (citation omitted).
Second, as the panel acknowledged, calling a
proceeding “in rem” does not end the inquiry. An IPR
could just as easily be analogized to a quiet title action,
an in rem proceeding to which sovereign immunity
admittedly attaches. See Pet. App. 30a-31a (citing
Idaho v. Coeur d’Alene Tribe of Idaho, 521 U.S. 261,
281-82 (1997)). The line the panel drew between in
rem proceedings to which sovereign immunity does
and does not apply is an obvious gerrymander that has
little to do with the purposes and constitutional
traditions the immunity reflects. For example, relying
on California v. Deep Sea Research, Inc., 523 U.S. 491
(1998), the panel drew a sharp distinction between
suits regarding “property that is physically possessed
by a state and property that is not.” Pet. App. 33a
(emphasis added). But the critical qualification—the
property must be in the State’s physical possession—
is the panel’s invention. Deep Sea had no occasion to
distinguish between property (like ships) capable of
physical possession and property (like patents) that
are not. Instead, the decision is deeply rooted in the

31
very specific history and tradition of admiralty
jurisdiction. See 523 U.S. at 501-08. The bankruptcy
cases likewise turn on the specific historical practices
and understandings in that specialized context. See
Katz, 546 U.S. at 369-78; Hood, 541 U.S. at 446-51.
Indeed, Katz disavowed deciding whether the
proceeding at issue was in rem, resolving the case on
other bankruptcy-specific grounds. See 546 U.S. at
372. But there is no comparable historical support for
the Federal Circuit’s decision in this case—patent
validity challenges were decided exclusively through
in personam litigation until the late twentieth
century. See Pet. App. 9a-10a.
II. The Question Presented Is Important And
Warrants Immediate Review.
The PTAB, the Department of Justice, and the
States have all acknowledged the broad importance of
the question presented. See Pet. App. 39a (Patent
Office expanded PTAB panel because of “the
exceptional nature of the issues presented”); U.S. C.A.
Amicus Br. 1 (characterizing question as having
“cross-cutting
significance
for
the
federal
government”); States C.A. Amicus Br. 3-8 (explaining
importance of question to State universities and
budgets). They are all correct.
State universities are issued thousands of patents
every year, and many hold portfolios that generate
millions of dollars in much-needed revenues for the
States and their educational institutions. See States
C.A. Amicus Br. 3-6.
IPRs have become an
increasingly common method for challenging such
patents, made particularly attractive to infringement
defendants by their lower standard of proof for

32
unpatentability.
See Pet. App. 40a-41a (PTAB
observing the frequency with which sovereign
immunity question arises); Cuozzo, 136 S. Ct. at 2144
(describing different standards of proof). Indeed, it is
a rare case in which a State’s attempt to enforce its
patent rights does not prompt an IPR challenge. 16
Moreover, because most IPRs are prompted by
infringement suits, 17 they are typically directed at
States’ most important patents, i.e., the ones valuable
enough to warrant the cost of bringing infringement
litigation.
Even just the cost of defending against those IPRs
is significant. See Am. Intellectual Prop. Law Ass’n,
2017 Report of the Economic Survey 51 (2017) (median
cost of defending single IPR through appeal
approaches half a million dollars). The same patent
can be subject to repeated IPR petitions, as illustrated
by the four separate IPRs intervenor Gilead Sciences,
Inc. brought against the same patent in litigation
below.18 And because IPRs are not in rem proceedings,
the same patent can be challenged over and over again
by a string of different petitioners. 19 Moreover, in
many cases, the State will be simultaneously litigating
the same invalidity claims with the same parties
before the PTAB and in one or more district courts,

16

Cf. Postgrant HQ Reporter, 2018 Analysis on PTAB
Contested Proceedings 7, https://www.postgranthq.com/wpcontent/uploads/2018/10/PGHQ_Reporter_2018.pdf (more than
85% of IPRs are concurrent with related infringement litigation).
17

See id.

18

See Gilead Scis., Inc. v. Regents of the Univ. of Minn.,
IPR2017-01712, -01753, -02004, -02005.
19

See supra n.16.

33
which are not required to stay their proceedings
pending an IPR. See 35 U.S.C. § 315(a).
The importance of the question presented is not
just practical and economic. Sovereign immunity is a
critical element of the Constitution’s structural
protection of liberty through the division of power
between States and the Federal Government. See
Alden, 527 U.S. at 751.
The Federal Circuit’s
disregard for that essential feature of the
constitutional order in the patent context is bad
enough.
But if left unreviewed, the precedent
established here will provide a template for further
incursions on States’ immunity and evasion of the
constitutional limits on Congress’s powers of
abrogation.
III. This Case Is An Excellent Vehicle.
This case provides an excellent vehicle for
resolving the question presented. The sovereign
immunity question was the sole ground for the
decision below and the subject of extensive briefing,
including by the Department of Justice and multiple
States as amici. The panel resolved the question on
the authority of its prior decision in Saint Regis
Mohawk Tribe v. Mylan Pharmaceuticals Inc., 896
F.3d 1332 (Fed. Cir. 2018), cert. denied, 139 S. Ct. 1547
(2019), which was likewise vigorously litigated. Given
the denial of rehearing en banc in Saint Regis, and the
unanimous panel decision in this case, no further
percolation can be expected.20

20

The Court’s denial of certiorari in Saint Regis no doubt
reflects that the case did not squarely present the more important

34
The PTAB’s claim that the University waived its
immunity to IPR proceedings by filing an
infringement action in district court is no reason to
deny review of the antecedent question whether
immunity applies to IPRs in the first place. This Court
regularly grants certiorari to decide similar threshold
questions despite the availability of alternative
grounds for affirmance that were not reached by the
lower court.
For example, in Florida Prepaid
Postsecondary Education Expense Board v. College
Savings Bank, 527 U.S. 627 (1999), this Court granted
certiorari to review the Federal Circuit’s holding that
Congress validly abrogated States’ sovereign
immunity to private patent infringement suits even
though the court of appeals had not decided the
plaintiff’s alternative claim that the defendant had
waived any immunity it might have by failing to
timely raise the defense in the trial court, see Coll.
Sav. Bank v. Fla. Prepaid Postsecondary Educ.
Expense Bd., 148 F.3d 1343, 1345 (Fed. Cir. 1998).
Moreover, the PTAB’s waiver holding is
meritless.21 Sovereign immunity’s fundamental purpose
is to protect the State’s prerogative to select the forum
to which it will submit its disputes with private
parties. See, e.g., Pennhurst State Sch. & Hosp. v.
Halderman, 465 U.S. 89, 99 (1984). To say that a
State has sovereign immunity in the patent context is
to say that it may elect when and where to litigate its

question—presented here—of State sovereign immunity to IPRs
and the vehicle problems specific to that litigation. See Saint
Regis BIO 29-36.
21

See generally Pet. C.A. Br. 36-60; Pet. C.A. Reply Br. 25-30;
States C.A. Amicus Br. 8-16.

35
patent rights, including any invalidity claims. It
makes no sense to hold, as the PTAB did, that the
moment a State makes its election (by filing suit in a
federal court), it thereby waives its right to make that
choice stick.
The Federal Circuit thus has rightly held that
filing an infringement suit in one federal court does
not waive a State’s immunity to a defendant’s separate
suit seeking a declaration of the underlying patent’s
invalidity. Tegic, 458 F.3d at 1340, 1342. The PTAB
tried to avoid the natural implications of that holding
by treating IPRs as an extension of the infringement
litigation. Pet. App. 43a-44a. But that claim has no
foundation. Even more so than declaratory judgment
actions, IPRs are instituted as independent matters
before a separate tribunal in an entirely different
branch of the government. Indeed, IPRs can be
brought even if no district court litigation is ever filed.
The PTAB also claimed authority under this
Court’s decision in Lapides v. Board of Regents of
University System of Georgia, 535 U.S. 613 (2002), to
deem the State’s immunity waived in the name of
preventing unfairness. Pet. App. 44a-47a. But
Lapides does not authorize courts to deny sovereign
immunity to States whenever respecting it seems
unfair. See 535 U.S. at 619 (immunity waived because
State voluntarily invoked jurisdiction of federal court
through removal); id. at 622-23 (describing that
specific rule as preventing unfairness). And, in any
event, there is nothing remarkable about respecting a
State’s choice of forum when the choice does not
preclude respondents from raising any of their
defenses. Respondents may prefer to have a choice of
the forum in which to litigate their unpatentability

36
challenges, and they would if dealing with a private
counterparty. But complete “‘evenhandness’ between
individuals and States is not to be expected” given
States’ unique and sovereign status under our
Constitution.
Coll. Sav. Bank v. Fla. Prepaid
Postsecondary Educ. Expense Bd., 527 U.S. 666, 68586 (1999) (brackets omitted).

37
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.
Respectfully submitted,
Michael A. Albert
Charles T. Steenburg
Gerald B. Hrycyszyn
Stuart V.C. Duncan Smith
WOLF, GREENFIELD &
SACKS, P.C.
600 Atlantic Avenue
Boston, MA 02210

September 12, 2019

Kevin K. Russell
Counsel of Record
Charles H. Davis
Erica Oleszczuk Evans
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
kr@goldsteinrussell.com

APPENDIX

1a
APPENDIX A
________________________________
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________________________
No. 2018-1559
REGENTS OF THE UNIVERSITY OF MINNESOTA,
Appellant,
v.
LSI CORPORATION, AVAGO TECHNOLOGIES U.S. INC.,
Appellees,
GILEAD SCIENCES, INC.,
Intervenor.
________________________________
Decided: June 14, 2019
________________________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. IPR2017-01068
________________________________

2a
Nos. 2018-1560, 2018-1561, 2018-1562, 2018-1563,
2018-1564, 2018-1565
REGENTS OF THE UNIVERSITY OF MINNESOTA,
Appellant,
v.
ERICSSON INC., TELEFONAKTIEBOLAGET LM ERICSSON,
Appellees,
GILEAD SCIENCES, INC.,
Intervenor.
________________________________
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2017-01186, IPR2017-01197,
IPR2017-01200, IPR2017-01213, IPR2017-01214,
IPR2017-01219.
________________________________
Before DYK, WALLACH, and HUGHES, Circuit Judges.
Opinion for the court by Circuit Judge DYK, in which
WALLACH and HUGHES, Circuit Judges, join.
Additional views by Circuit Judges DYK, WALLACH,
and HUGHES.
DYK, Circuit Judge.
The Regents of the University of Minnesota
(“UMN”) appeals from decisions by the United States
Patent and Trademark Office (“USPTO”) Patent Trial
and Appeal Board (“Board”) declining to dismiss
petitions for inter partes review (“IPR”). The petitions
were alleged to be improper because states supposedly
enjoy sovereign immunity in IPR proceedings. We

3a
conclude that state sovereign immunity does not apply
to these proceedings, and therefore we affirm.
BACKGROUND
The University of Minnesota is an arm of the state
of Minnesota and is one of the largest public research
institutions in the country. It pursues patent
protection for inventions resulting from its research
and is the owner of U.S. Patent Nos. 5,859,601 (’601
patent), 7,251,768 (’768 patent), 7,292,647 (RE45,230
patent), 8,588,317 (’317 patent), 8,718,185 (’185
patent), and 8,774,309 (’309 patent). The patents were
assigned to UMN at the outset of prosecution, and they
were issued between January 12, 1999, and July 8,
2014. These patents cover two distinct technologies.
Appellee LSI Corp. designs and supplies
semiconductors; it is alleged to infringe UMN’s ’601
patent, which claims particular types of “read
channel” chips. Appellee Ericsson Inc. is a
telecommunications company. Its customers’ use of
Ericsson’s products was alleged to infringe UMN’s
’768, RE45,230, ’317, ’185, and ’309 patents. These
patents claim technology used for 4G LTE networks.
UMN, alleging infringement of these patents,
sued LSI and separately sued Ericsson’s customers in
district court. Ericsson intervened in the customer
suits.
After the commencement of the suits for patent
infringement, LSI and Ericsson separately petitioned
for IPR seeking a determination of unpatentability of
the challenged claims on grounds of anticipation and
obviousness. See LSI Corp. v. Regents of the Univ. of
Minn., No. IPR2017-01068, Paper 1 (P.T.A.B. Mar. 10,
2017); Ericsson Inc. v. Regents of the Univ. of Minn.,

4a
Nos. IPR2017-01186, Paper 1 (P.T.A.B. Mar. 28, 2017);
IPR2017-01197, Paper 1 (P.T.A.B. Mar. 29, 2017);
IPR2017-01200, Paper 1 (P.T.A.B. Mar. 30, 2017);
IPR2017-01213, Paper 1 (P.T.A.B. Mar. 30, 2017);
IPR2017-01214, Paper 1 (P.T.A.B. Mar. 30, 2017);
IPR2017-01219, Paper 1 (P.T.A.B. Mar. 30, 2017).
After the petitions for IPR were filed, and before
the USPTO decided whether to institute IPR, UMN
filed a motion to dismiss in each proceeding based on
state sovereign immunity. The USPTO convened an
expanded panel, consisting of three administrative
patent judges as well as the Chief Judge, Deputy Chief
Judge, and two Vice Chief Judges. In each proceeding,
the Board concluded that state sovereign immunity
applied to IPR proceedings but that UMN waived its
immunity by filing suit against petitioners in district
court.1 A concurrence to each of the Board decisions
concluded that sovereign immunity was not implicated
in part because “[a]t its core, inter partes review is a
circumscribed in rem proceeding, in which the Patent
Office exercises jurisdiction over the patent
challenged, rather than the parties named.” J.A. 13;
J.A. 33.

1

The Board’s order denying UMN’s motion to dismiss is at
LSI Corp. v. Regents of the University of Minnesota, No. IPR201701068, Paper 19 (P.T.A.B. Dec. 19, 2017), which is identical in
relevant part to the Board’s order in Ericsson Inc. v. Regents of
the University of Minnesota, Nos. IPR2017-01186, Paper 14;
IPR2017-01197, Paper 14; IPR2017-01200, Paper 16; IPR201701213, Paper 14; IPR2017-01214, Paper 14; IPR2017-01219,
Paper 15 (P.T.A.B. Dec. 19, 2017).

5a
UMN appealed the Board’s decisions, and the
cases have been consolidated on appeal. Gilead
Sciences, Inc., facing the same issue for its own IPR
petitions, sought leave to intervene, which was
granted. Regents of the Univ. of Minn. v. LSI Corp.,
Appeal No. 2018-1559 (Fed. Cir. Apr. 19, 2018), ECF
No. 35. We have jurisdiction under 28 U.S.C.
§ 1295(a)(4)(A).2
While this appeal was pending, this court decided
Saint Regis Mohawk Tribe v. Mylan Pharmaceuticals
Inc., 896 F.3d 1322 (Fed. Cir. 2018), holding that IPR
proceedings were not barred by tribal sovereign
immunity. A petition for certiorari was filed in that
case, and the petition was denied, 139 S. Ct. 1547.
2
Appellee LSI argues that UMN’s appeal is not ripe because
any harm to UMN would not occur unless and until the Board
instituted IPR, which may or may not occur. (The USPTO and
the other parties to this appeal do not challenge our jurisdiction).
It is well-established that decisions denying sovereign immunity
are appealable as collateral orders, and the “ultimate justification
is the importance of ensuring that the States’ dignitary interests
can be fully vindicated.” P.R. Aqueduct & Sewer Auth. v. Metcalf
& Eddy, Inc., 506 U.S. 139, 146-47 (1993) (citing Mitchell v.
Forsyth, 472 U.S. 511, 527-29 & n.10 (1985)); see Chehazeh v.
Attorney Gen. of U.S., 666 F.3d 118, 135-36 (3d Cir. 2012)
(collecting cases); see also Mohawk Indus., Inc. v. Carpenter, 558
U.S. 100, 110 (2009). We see no material difference between a
decision made after institution of IPR, as in Saint Regis Mohawk
Tribe v. Mylan Pharmaceuticals Inc., 896 F.3d 1322, 1325 (Fed.
Cir. 2018), and a decision made before institution, as in this case.
Given UMN’s alleged dignitary interests in avoiding IPR, the
“purely legal” issue of whether sovereign immunity bars IPR for
state-owned patents is ripe for review. See Abbott Labs. v.
Gardner, 387 U.S. 136, 149 (1967), abrogated on other ground by
Califano v. Sanders, 430 U.S. 99, 105 (1977).

6a
DISCUSSION
I. Post-Issuance Administrative Proceedings3
Addressing the issue of state sovereign immunity
requires a detailed understanding of the history of IPR
proceedings and the reasons that Congress created
such proceedings.
The USPTO is an agency within the Department
of Commerce and is “responsible for the granting and
issuing of patents.” 35 U.S.C. §§ 1, 2. Almost every
year the number of submitted patent applications has
increased, from approximately 100,000 in 1980 to
nearly 650,000 in 2018. U.S. Patent & Trademark
Office, U.S. Patent Statistics, Calendar Years 19632015, https://www.uspto.gov/web/offices/ac/ido/oeip/
taf/us_stat.pdf; U.S. Patent & Trademark Office, FY
2018 Performance & Accountability Report 179 tbl.2
(2018)
[hereinafter
FY2
2018
P&A
Rpt.],
https://www.uspto.gov/sites/default/files/documents/
USPTOFY18PAR.pdf. This has led to a steady backlog
of applications, and the USPTO now issues
approximately 300,000 patents each year. FY 2018
P&A Rpt., at 180 tbl.3; id. at 181 tbl.6. To perform its
duty to examine and issue patents, the USPTO relies
on a corps of approximately 8,000 patent examiners
who are charged with determining whether an
applicant is entitled to a patent for a claimed
invention. Id. at 205 tbl.28. Although essential to the
examination process, the agency struggles to attract
and retain examiners able to perform sufficiently
3

This history is discussed in the majority and concurrence in
Saint Regis.

7a
thorough prior art searches and make a patentability
determination.4
Given the large number of patent applications,
patent examiners only receive roughly 22 hours to
review each application, which 70% of examiners have
reported
as
insufficient
time.
U.S.
Gov’t
Accountability Office, GAO-16-490, Patent Office
Should Define Quality, Reassess Incentives, and
Improve Clarity 10, 25-26 (2016) [hereinafter Quality,
Incentives, & Clarity]. In those 22 hours, examiners
must ensure not only that technical formalities are
met, but also that the statutory requirements for
patentability, such as novelty and non-obviousness,
are met. For this determination, the USPTO relies on
the examiner’s prior art searching, aided by prior art
the applicant identifies.
For many years, until 2000, there was virtually no
public input in the initial examination process since
patent applications were not published. Beginning in
2000, patent applications have been typically
published 18 months after the earliest claimed filing
date, see 35 U.S.C. § 122; 37 C.F.R. § 1.211, and
Congress has provided for some limited public
participation during the initial examination,5 see 35
4

See U.S. Gov’t Accountability Office, GAO-16-479, Patent
Office Should Strengthen Search Capabilities and Better Monitor
Examiners’ Work 28-29 & 28 n.50 (2016); FY 2018 P&A Rpt., at
205 tbl.28 (2018) (showing net attrition of more than 450
examiners from 2014 to 2018).
5

After a patent application is published, a third party may
file a pre-issuance submission, which includes either a patent
application, published patent application, or other printed
publication and, after 2011, a concise statement as to the

8a
U.S.C. §§ 122(c), (e); H.R. Rep. No. 112-98, pt. I, at 4849 (2011); 37 C.F.R. §§ 1.290-91. Nonetheless, in light
of the USPTO’s constrained resources and the absence
of material outside input during the initial
examination, it is inevitable that there are patents
granted in error.6
This is not a new phenomenon. In 1980, Congress
was concerned that this was “a situation where a
limited staff is trying to cope with a constantly
increasing workload and is under pressure to make
speedy determinations on whether or not to grant
patents.” S. Rep. No. 96-617, at 8 (1980); see also
Patent Reexamination: Hearing on S. 1679 Before the
Comm. on the Judiciary, 96th Cong. 3 (1980)
(statement of Sen. Bayh) (characterizing the USPTO
as “an understaffed and overworked office trying to
handle an ever increasing workload”); Industrial
Innovation and Patent and Copyright Law
Amendments: Hearing on H.R. 6033, H.R. 6934, H.R.
3806, H.R. 2414 Before the Subcomm. on Courts, Civil
Liberties & the Admin. of Justice of the H. Comm. on

relevance of the submitted prior art to the patentability of the
claimed invention. 35 U.S.C. § 122(e); 37 C.F.R. § 1.290.
6
See Quality, Incentives, & Clarity, at 25 (“[E]xaminers’ time
pressures are one of the central challenges for patent quality.”);
see also Michael D. Frakes & Melissa F. Wasserman, Does the
U.S. Patent and Trademark Office Grant Too Many Bad Patents?:
Evidence from a Quasi-Experiment, 67 Stan. L. Rev. 613, 652-53
(2015) (finding increased patent grant rates correlated with increased resource strain on the USPTO); Shawn P. Miller, Where’s
the Innovation: An Analysis of the Quantity and Qualities of
Anticipated and Obvious Patents, 18 Va. J.L. & Tech. 1, 45 (2013)
(estimating that 28% of issued patents would be invalidated as
anticipated or obvious).

9a
the Judiciary, 96th Cong. 580-81 (1981) (statement of
Sidney A. Diamond, Commissioner of Patents and
Trademarks). Congress’ solution was to provide for
reexamination of the original patent grant.
In general, until 1980 the only way the original
patent grant could be challenged was in patent
litigation in district court by a declaratory judgment
action or as a defense in a patent infringement action,
both of which could be extremely expensive and both
of which generally were not available until a claim of
infringement was asserted by the patent owner. See
Patlex Corp. v. Mossinghoff, 758 F.2d 594, 601-02 (Fed.
Cir. 1985); S. Rep. 96-617, at 9-10 (testimony of Sidney
A. Diamond, Commissioner of Patents and
Trademarks).7 In this respect, the United States’
patent system diverged from its English origins, which
had for centuries recognized the executive’s ability to
reconsider a prior patent grant.8 In 18th-century
England, parties could challenge the validity of a

7

There were earlier post-grant administrative proceedings to
determine who was the proper owner of a patented invention (i.e.,
an interference proceeding), see, e.g., Morgan v. Drake, 36 F.2d
511 (C.C.P.A. 1929), and to reevaluate the patentability of a
patented invention based on an application by the patent owner
(i.e., a reissue proceeding), see Fresenius USA, Inc. v. Baxter Int’l,
Inc., 721 F.3d 1330, 1336-40 (Fed. Cir. 2013) (discussing history).
8

See In re Bilski, 545 F.3d 943, 966-76 (Fed. Cir. 2008) (en
banc) (Dyk, J., concurring) (discussing the relationship between
the U.S. patent law and the English common law); Mark A.
Lemley, Why Do Juries Decide If Patents Are Valid?, 99 Va. L.
Rev. 1673, 1691-704 (2013) [hereinafter Why Do Juries Decide?]
(discussing the divergence of early American and English patent
practice).

10a
patent by petitioning the government via the Privy
Council to revoke the public franchise. Oil States
Energy Servs., LLC v. Green’s Energy Grp., LLC, 138
S. Ct. 1365, 1376-78 (2018). “The Privy Council was a
prominent feature of the English system,” and “[b]ased
on the practice of the Privy Council, it was well
understood at the founding that a patent system could
include a practice of granting patents subject to
potential cancellation in the executive proceeding.” Id.
at 1377.
In 1980, Congress for the first time enacted postgrant review provisions allowing a challenge to the
validity of an issued patent in an ex parte
reexamination process.9 Act of Dec. 12, 1980, Pub. L.
No. 96-517, 94 Stat. 3015 (1980). In these proceedings,
Congress sought to enlist the assistance of third
parties to identify relevant prior art so as to address
the lack of public trust and confidence in the patent
system’s ability to weed out bad patents in initial ex
9

Prior to 1836, Congress had authorized suit for scire facias
to invalidate a patent where the suit, though brought by a private
party, was under the control of the United States. In the Patent
Act of 1836, Congress repealed that provision, but the Supreme
Court concluded that the statutory change did not remove the
United States’ ability to sue in equity to invalidate a patent, at
least where there had been fraud on the patent office. See United
States v. Am. Bell. Tel. Co., 128 U.S. 315, 371-73 (1888) (“[Such a
suit by the United States] is so widely different, so much more
beneficial, and is pursued under circumstances so much more
likely to secure complete justice, than any defense which can be
made by an individual infringer, that it is impossible to suppose
that congress, in granting this right to the individual, intended
to supersede or take away the more enlarged remedy of the
government.”); Why Do Juries Decide, supra n.8, at 1695-97.

11a
parte examination.10 As the USPTO Commissioner
explained during consideration of the 1980 legislation,
The main reason [the new procedure of]
reexamination is needed is because members
of the public interested in the validity of a
patent are sometimes able to find pertinent
prior patents and printed publications not
known or available to the PTO . . . .
The patent owner’s competitors will devote
great effort and expense to invalidating a
patent that affects their businesses. They can
afford to look for documentary evidence of
unpatentability
in
library
collections,
technical journals and other sources not
within the PTO’s search file. Because of
budgetary and time constraints, the
examiner’s search seldom extends beyond the
PTO’s 22 million document collection.
Industrial Innovation and Patent and Copyright Law
Amendments: Hearing on H.R. 6033, H.R. 6934, H.R.
3806, H.R. 2414 Before the Subcomm. on Courts, Civil
Liberties & the Admin. of Justice of the H. Comm. on
the Judiciary, 96th Cong. 576 (1981) (statement of
Sidney A. Diamond, Commissioner of Patents and
Trademarks). Not only would the USPTO benefit from
greater public participation in post-grant proceedings,
but the proceedings also had new procedures that
10

Mark D. Janis, Rethinking Reexamination: Toward a Viable
Administrative Revocation System for U.S. Patent Law, 11 Harv.
J.L. & Tech. 1, 9-10 (1997); see S. Rep. No. 96-617, at 2-3, 14
(1980); H.R. Rep. No. 96-1307, pt. 1, at 3 (1980) (expressing
concern as to the lack of confidence in the patent system).

12a
would allow the agency to focus its resources on
reevaluating those patents of particular concern to the
public.11
Thus, “[t]he reexamination statute enabled the
PTO to recover administrative jurisdiction over an
issued patent in order to remedy any defects in the
examination which that agency had initially
conducted and which led to the grant of the patent.”
Patlex, 758 F.2d at 601. Under the reexamination
procedures, if the USPTO learned of prior art that
raised “a substantial new question of patentability” it
could institute an ex parte reexamination. 35 U.S.C.
§ 303.
However, ex parte reexaminations did not solve
the agency’s problems. Once instituted, ex parte
reexamination largely followed the same process as
the initial examination, without further third-party
input. S. Rep. No. 110-259, at 18-19 (2008). It
“follow[ed] essentially the same inquisitorial process
between patent owner and examiner as the initial
Patent Office examination.” SAS Inst., Inc. v. Iancu,
138 S. Ct. 1348, 1353 (2018) (citing 35 U.S.C. § 305).
In this respect, it was “meaningfully different” from
the inter partes reexamination and IPR proceedings
that Congress adopted thereafter. Return Mail, Inc. v

11

See Kimberly A. Moore, Worthless Patents, 20 Berkeley
Tech. L.J. 1521, 1521-22, 1530-31 (2005) (noting that only a small
fraction of issued patents are ever asserted and that, in the
sample of patents studied, more than half of all the issued patents
expired for failure to pay maintenance fees); Mark A. Lemley,
Rational Ignorance at the Patent Office, 95 Nw. U. L. Rev. 1495,
1497, 1501-08 (2001) (same).

13a
U.S. Postal Serv., No. 17-1594, slip op. at 14 (June 10,
2019).
In 1999, seeking to enhance the process, Congress
enacted provisions for the inter partes reexamination
proceedings, in order to increase third party
participation. Act of Nov. 29, 1999, Pub. L. No. 106113, 113 Stat. 1501 (1999); see H.R. Rep. 106-464, at
133 (1999).
Similar to ex parte reexamination, the inter
partes reexamination process began with a third-party
request for reexamination based on prior art, and if
the prior art raised a substantial new question of
patentability, the USPTO would grant the request and
proceed with reexamination. 35 U.S.C. § 312 (2002).
However, significantly, unlike ex parte reexamination,
inter partes reexamination allowed the third-party
requestor to participate throughout the proceeding.
“Each time that the patent owner file[d] a response to
an action on the merits from the [USPTO], the thirdparty requester shall have one opportunity to file
written comments addressing issues raised by the
action of the Office or the patent owner’s response
thereto.” Id. § 314. The third party could also appeal
to the Board of Patent Appeals and Interferences if the
examiner found the claims to be not unpatentable.
“The participation by third parties [was] considered
vital” to the goal of “improving patent quality and
validity” because “in many circumstances they [would]
have the most relevant prior art available and
incentive to seek to invalidate an allegedly defective
patent.” H.R. Rep. 107-120, at 4 (2001). After 1999,
Congress continued to tweak ex parte and inter partes
proceedings, but they were less widely used than
Congress had hoped and had features that made them

14a
“troublesomely inefficient and ineffective as a truly
viable alternative for resolving questions of patent
validity.” S. Rep. No. 110-259, at 19 (2008).12
In 2011, Congress enacted the Leahy-Smith
America Invents Act (“AIA”), Pub. L. No. 112-29, 125
Stat. 284 (2011), to “improve patent quality and limit
unnecessary and counterproductive litigation costs.”
H.R. Rep. 112-98, pt. I, at 40 (2011). Congress replaced
inter partes reexamination with new post-grant
review procedures, including IPR, covered business
method review, and post-grant review, while retaining
ex parte reexamination. IPR in particular was
designed to improve on the inter partes reexamination
process, and “[a]lthough Congress changed the name
from ‘reexamination’ to ‘review,’ nothing convinces us
that, in doing so, Congress wanted to change its basic
purposes, namely to reexamine an earlier agency
decision.” Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct.
2131, 2137, 2144 (2016). Just as with the prior
reexamination procedures, IPR “allows a third party
to ask the U.S. Patent and Trademark Office to
reexamine the claims,” id. at 2136, albeit with
“broader participation rights,” id. at 2137.
Before IPR can be instituted, a person must file a
petition challenging the validity of one or more patent
12

For example, until 2002, a person requesting reexamination
of a patent could not solely rely on prior art that the USPTO had
already considered. See Pub. L. 107-273, § 13105, 116 Stat. 1758,
1900 (2002). Another example of the deficiency of these
proceedings was that inter partes reexamination took an average
of three and a half years from initiation to a certificate issue date.
See U.S. Patent & Trademark Office, Inter Partes Reexamination
Filing Data (2017), https://www.uspto.gov/sites/default/files/
documents/inter_parte_historical_stats_roll_up.pdf.

15a
claims under § 102 or § 103 on the basis of prior art
patents or printed publications. 35 U.S.C. §§ 311, 312.
The petition may be supported by declarations. 35
U.S.C. § 312(a)(3)(B). The petitioner need not have
constitutional standing to file the petition or
participate in IPR. Cuozzo, 136 S. Ct. at 2143-44. After
filing, the petitioner has a limited ability to amend its
petition as “the Board has determined that in IPR a
petitioner may only make clerical or typographical
corrections to its petition.” Saint Regis, 896 F.3d at
1328. The petitioner must also serve the petition on
the patent owner, 37 C.F.R. § 42.105, and the patent
owner may, but need not, file a preliminary response,
35 U.S.C. § 313; 37 C.F.R. § 42.107(a).
If the Director of the USPTO, a politically
accountable executive officer,13 determines that the
appropriately filed petition “shows that there is a
reasonable likelihood that the petitioner would prevail
with respect to at least 1 of the claims challenged in
the petition,” the Director may institute IPR. 35 U.S.C.
§ 314(a); see 35 U.S.C. § 325(d). “The decision whether
to institute inter partes review is committed to the
Director’s discretion.” Oil States, 138 S. Ct. at 1371.
This decision is “final and nonappealable.” 35 U.S.C.
§ 314(d); see Oil States, 138 S. Ct. at 1378 n.5 (citing
Cuozzo, 136 S. Ct. at 2140).
Once instituted, the Board, typically a threemember panel of administrative patent judges,
examines the validity of the asserted patent claims. A
patent owner may respond to the petition after IPR is
13

The Director is “appointed by the President, by and with the
advice and consent of the Senate,” and “may be removed from
office by the President.” 35 U.S.C. § 3(a)(1), (4).

16a
instituted, 35 U.S.C. § 316(a)(8), but the petitioner
bears the burden of proving “unpatentability by a
preponderance of the evidence,” id. § 316(e). The
procedure for reexamining the earlier decision to issue
the patent by design is abbreviated compared to
district court proceedings. See id. § 316(a)(11). During
IPR, the patent owner and petitioner can seek
discovery, but such discovery is generally limited to
“(A) the deposition of witnesses submitting affidavits
or declarations; and (B) what is otherwise necessary in
the interest of justice.” Id. § 316(a)(5); 37 C.F.R.
§ 42.51(b); see 154 Cong. Rec. S9988-89 (daily ed. Sept.
27, 2008) (statement of Sen. Kyl) (noting that “[g]iven
the time deadlines imposed on these proceedings, it is
anticipated that, regardless of the standards imposed
. . . PTO will be conservative in its grants of
discovery”).14 Additionally, although the parties are
entitled to an oral hearing, 35 U.S.C. § 316(a)(10); 37
C.F.R. § 42.70, “[t]he hearings are short, and live
testimony is rarely allowed.” Saint Regis, 896 F.3d at
1328 (citing Ultratec, Inc. v. CaptionCall, LLC, 872
F.3d 1267, 1270 n.2 (Fed. Cir. 2017)).

14
“[D]iscovery is limited as compared to that available in
district court litigation. Limited discovery lowers the cost,
minimizes the complexity, and shortens the period required for
dispute resolution. There is a one-year statutory deadline for
completion of inter partes review, subject to limited exceptions.
What constitutes permissible discovery must be considered with
that constraint in mind.” Garmin Int’l, Inc. v. Cuozzo Speed
Techs. LLC, No. IPR2012-00001, 2013 WL 11311697, at *3 (Paper
26) (P.T.A.B. Mar. 5, 2013) (citations omitted) (contextualizing
the Board’s interpretation of the “necessary in the interest of
justice” prong for IPR discovery).

17a
Once instituted, the proceedings may continue
without either the petitioner or the patent owner. The
statutory provision states that if the petitioner stops
participating, the Board may continue on to a final
written decision. 35 U.S.C. § 317(a). If the patent
owner stops participating, “[t]he Board has construed
its rules to allow it to continue review.” Saint Regis,
896 F.3d at 1328. During the proceeding the patent
owner may also seek leave to amend the original
patent claims to resolve the problem of patent
eligibility, as the applicant can do in initial
examination though the proposed amendments may
also be challenged by the petitioner. 35 U.S.C.
§ 316(d).
An IPR proceeding in general must be completed
within one year of institution. 35 U.S.C. § 316(a)(11).
When IPR is completed, the Board issues a final
written decision with respect to patent claims
challenged by the petitioner and any claims sought to
be amended. 35 U.S.C. § 318(a). A party dissatisfied
with the decision may then appeal to this court, id.
§ 319,15 and the Director may intervene in the appeal,
id. § 143. After the time for appeal has expired, or
appellate review has been exhausted, the process
ultimately terminates with the USPTO issuing a
certificate canceling, confirming, or incorporating
patent claims. Id. § 318(b). The proceeding cannot
award monetary or other relief against the patent
owner. Following an IPR proceeding that “results in a

15

We have held, however, that a petitioner can only appeal an
adverse decision by the Board if it satisfies Article III standing
requirements. Consumer Watchdog v. Wis. Alumni Research
Found., 753 F.3d 1258, 1260-61 (Fed. Cir. 2014).

18a
final written decision,” statutory estoppel applies to
the petitioner with respect to “any ground that the
petitioner raised or reasonably could have raised
during” the IPR proceeding. Id. § 315(e). The patent
owner is estopped from obtaining “[a] claim that is not
patentably distinct from a finally refused” claim. 37
C.F.R. § 42.73(d)(3)(i).
II. State Sovereign Immunity
While admitting that both ex parte and inter
partes reexamination did not implicate sovereign
immunity,16 UMN and its supporting amici contend
that states enjoy immunity from IPR proceedings.
States typically enjoy immunity from lawsuits
brought by private parties as a “fundamental aspect of
the sovereignty which the States enjoyed before the
ratification of the Constitution, and which they retain
today.” Alden v. Maine, 527 U.S. 706, 713 (1999). This
is sometimes referred to as Eleventh Amendment
immunity,17 but “the sovereign immunity of the States
neither derives from nor is limited by, the terms of the
Eleventh Amendment.” Id.; see Seminole Tribe of Fla.
v. Florida, 517 U.S. 44, 54 (1996). “The preeminent
purpose of state sovereign immunity is to accord
States the dignity that is consistent with their status

16

“Q. Do States enjoy sovereign immunity in reexam
proceedings? A. In an ex parte reexamination, no . . . .” “Q. So no
sovereign immunity in inter partes reexam? A. . . . I would say no
. . . .” Oral Arg. at 6:20-7:01.
17

“The Judicial power of the United States shall not be
construed to extend to any suit in law or equity, commenced or
prosecuted against one of the United States by Citizens of
another State, or by Citizens or Subjects of any Foreign State.”
U.S. Const. amend. XI.

19a
as sovereign entities,” while collaterally “serv[ing] the
important function of shielding state treasuries.” Fed.
Mar. Comm’n v. S.C. State Ports Auth., 535 U.S. 743,
760, 765 (2002) (“FMC”).
This immunity applies not only to proceedings
brought by a private party in an Article III forum but
also to agency adjudications brought by private parties
that are similar to court adjudications. Id. at 760.
However, sovereign immunity does not apply to suits
brought by the United States, including agency
proceedings commenced by the United States. Id. at
752; Alden, 527 U.S. at 755 (citing Principality of
Monaco v. Mississippi, 292 U.S. 313, 328-29 (1934)
(collecting cases)); United States v. Mississippi, 380
U.S. 128, 140-41 (1965); United States v Texas, 143
U.S. 621, 646 (1892). The Supreme Court recognized
in FMC that sovereign immunity does not bar an
agency from bringing an enforcement action against
the state “upon its own initiative or upon information
supplied by a private party.” 535 U.S. at 767-68.
UMN argues that sovereign immunity applies to
IPR proceedings where the state is the patent owner
because they are not like suits brought by the United
States but are entirely a dispute between a private
party and the state, and they share similarities with
Article III proceedings where sovereign immunity
applies. We have recently addressed the related
question of whether tribal sovereign immunity applies
to IPR proceedings in Saint Regis Mohawk Tribe v.
Mylan Pharmaceuticals Inc., 896 F.3d 1322 (Fed. Cir.
2018), cert. denied, 139 S. Ct. 1547 (2019), and held
that it does not.

20a
III. Saint Regis Mohawk Tribe
In Saint Regis, the Saint Regis Mohawk Tribe
entered into an ownership agreement regarding
various patents, which were the subject of ongoing IPR
proceedings, and it then invoked tribal sovereign
immunity as a bar to those proceedings. Id. at 1325.
We concluded that tribal sovereign immunity did not
apply to IPR because the “USPTO [was] acting as the
United States in its role as a superior sovereign to
reconsider a prior administrative grant and protect
the public interest in keeping patent monopolies
‘within their legitimate scope.’” Id. at 1329 (quoting
Cuozzo, 136 S. Ct. at 2144).
The Supreme Court has concluded that IPR
proceedings are essentially agency reconsideration of
a prior patent grant. Cuozzo, 136 S. Ct. at 2144 (“[T]he
purpose of the proceeding is not quite the same as the
purpose of district court litigation . . . . [Instead,] the
proceeding offers a second look at an earlier
administrative grant of a patent.”); Oil States, 138
S. Ct. at 1374 (“[IPR] involves the same interests as
the determination to grant a patent in the first
instance.”). The fact that Congress has enlisted the
assistance of private parties does not change their
essential character. As discussed above, since 1980,
Congress, concerned with agency resource constraints,
has relied on third party participation to assist the
agency’s evaluation of patentability. See also Saint
Regis, 896 F.3d at 1330-31 (Dyk, J., concurring). In
IPR, Congress imported limited discovery and live
hearings. As explained in Saint Regis, although these
modifications to inter partes reexamination make IPR
“look[] a good deal more like civil litigation,” SAS, 138
S. Ct. at 1353, fundamentally these proceedings

21a
continue to be a “second look at an earlier
administrative grant of a patent,” Cuozzo, 136 S. Ct.
at 2144. See Saint Regis, 896 F.3d at 1327-29. The
USPTO’s enlistment of third parties in IPR has made
the process less of an “agency-led, inquisitorial process
for reconsidering patents,” and more of a “partydirected, adversarial process,” SAS, 138 S. Ct. at 1355,
i.e., “[an] adversarial, adjudicatory proceeding[]
between the ‘person’ who petitioned for review and the
patent owner,” Return Mail, slip op. at 14, but that
does not disturb the basic purpose of the proceeding,
“namely, to reexamine an earlier agency decision,”
Cuozzo, 136 S. Ct. at 2144. “Ultimately several factors
convince[d] us that IPR is more like an agency
enforcement action than a civil suit brought by a
private party, and we conclude[d] that tribal immunity
is not implicated.” Saint Regis, 896 F.3d at 1327.18
These factors are equally applicable to state sovereign
immunity.
First, “[i]t is the Director, the politically appointed
executive branch official, not the private party, who
ultimately decides whether to proceed against the
sovereign.” Saint Regis, 896 F.3d at 1328. Although
there must be a petition for IPR to be initiated (i.e.,
“[35 U.S.C. § 311(a)] doesn’t authorize the Director to
start proceedings on his own initiative,” SAS, 138
S. Ct. at 1355), any “person who is not the owner of
[the] patent” may file a petition, 35 U.S.C. § 311(a),
18

We did not hold that interference proceedings were barred
by state sovereign immunity in Vas-Cath, Inc. v. Curators of
Univ. of Mo., 473 F.3d 1376, 1382 (Fed. Cir. 2007), nor do we
decide that issue here. We note that interference proceedings may
more closely resemble agency adjudication between private
parties as compared to IPR proceedings.

22a
even those who do “not have a concrete stake in the
outcome; indeed, they may lack constitutional
standing,” Cuozzo, 136 S. Ct. at 2143-44. The
Director’s decision to institute is within his discretion,
and Congress went so far as to bar judicial review of
that decision. 35 U.S.C. § 314(d). In this respect, IPR
“is not initiated by private parties in the way that a
common-law cause of action is.” Oil States, 138 S. Ct.
at 1378 n.5.
Second, even if the petitioner or patent owner
elects not to participate during IPR, the Board can
continue to a final written decision, “reinforc[ing] the
view that IPR is an act by the agency in reconsidering
its own grant of a public franchise.” Saint Regis, 896
F.3d at 1328. In contrast, civil litigation in an Article
III forum terminates when there is no longer a “case
or controversy.”
Third, the IPR procedure is in other respects
distinct from ordinary civil litigation. The Federal
Rules of Civil Procedure do not apply. Unlike civil
litigation, during IPR a patent owner may amend its
claims. (In district court litigation, a patent owner
may only amend patent claims to correct
typographical errors). Id. at 1328-29. Even though
discovery and a live hearing may be part of an IPR
proceeding, both are more limited than their civil
counterparts. Id.
It is clear from the history and operation of IPR
that these proceedings are designed to allow the
USPTO to harness third parties for the agency to
evaluate whether a prior grant of a public franchise
was wrong, a feature carried over from inter partes
reexamination. In this way, IPR is akin to FMC
proceedings brought by the agency that would not be

23a
barred by sovereign immunity. 535 U.S. at 767-68.
Indeed, Saint Regis relied heavily on the Supreme
Court’s analysis in FMC, which dealt with state
sovereign immunity. 896 F.3d at 1326 (“Although the
precise contours of tribal sovereign immunity differ
from those of state sovereign immunity, the FMC
analysis is instructive.”). Applying FMC’s analysis as
we did in Saint Regis, we hold that IPR, like inter
partes reexamination, is similar to an agency
enforcement action instituted by the USPTO “upon
information supplied by a private party” rather than
civil litigation, so state sovereign immunity is not
implicated. FMC, 535 U.S. at 768.
We also read the Supreme Court’s holding in Oil
States, that IPR evaluation of patent validity concerns
“public rights,” as supporting the conclusion that IPR
is in key respects a proceeding between the
government and the patent owner. In Oil States, the
Court concluded that IPR proceedings could be
conducted before the agency rather than an Article III
court because they concern matters “which arise
between the Government and persons subject to its
authority,” that is “arising between the government
and others, which from their nature do not require
judicial determination.” 138 S. Ct. at 1373 (emphases
added) (quoting Crowell v. Benson, 285 U.S. 22, 50
(1932)).19 The Court concluded that despite the
19

This is not to say that the public rights doctrine may not
cover instances of disputes between private parties regarding a
public right. See MCM Portfolio LLC v. Hewlett-Packard Co., 812
F.3d 1284, 1288-92 (Fed. Cir. 2015). But we read the Supreme
Court as having resolved the public rights issue in Oil States on
the narrower ground that IPR is a proceeding between the United

24a
increased participation of third parties, IPR “remains
a matter involving public rights, one ‘between the
government and others.’” Id. at 1378 (emphasis added)
(quoting Ex parte Bakelite Corp., 279 U.S. 438, 451
(1929)). We interpret the Court’s language in Oil
States as concluding that IPR is an adjudication of
public rights, and therefore able to be resolved in a
non-Article III forum, because it is in key respects a
proceeding between the United States and the patent
owner. In this way, these proceedings are not barred
by state sovereign immunity since sovereign immunity
does not bar proceedings brought by the United States.
FMC, 535 U.S. at 752; Alden, 527 U.S. at 755 (citing
Principality of Monaco, 292 U.S. at 328-29).
UMN argues that the reasoning in Saint Regis is
inapposite to the current appeal because there are
salient differences between tribal and state sovereign
immunity. In Saint Regis we recognized “many
parallels” between tribal and state sovereign
immunity but left “for another day the question of
whether there is any reason to treat state sovereign
immunity differently.” 896 F.3d at 1329. We now
conclude that the differences between tribal and state
sovereign immunity do not warrant a departure from
the reasoning in Saint Regis.
To be sure, “immunity possessed by Indian tribes
is not coextensive with that of the States,” Kiowa Tribe
of Okla. v. Mfg. Techs., Inc., 523 U.S. 751, 756 (1998),
as the two are derived from different origins, compare
id. at 756-57, with Alden, 527 U.S. at 713-28. Tribal
sovereign immunity “is subject to the superior and
States and the patent owner, rather than adjudication between
two private parties regarding a public right.

25a
plenary control of Congress,” Santa Clara Pueblo v.
Martinez, 436 U.S. 49, 58 (1978), whereas state
sovereign immunity can only be abrogated under “a
valid grant of constitutional authority,” Kimel v. Fla.
Bd. of Regents, 528 U.S. 62, 73 (2000). But, as noted
above, suits brought by the United States have long
been recognized as not being impeded by either tribal
or state sovereign immunity, and when Congress
intends to abrogate either tribal or state sovereign
immunity for suits brought by private parties, it must
do so with clear language. See, e.g., Michigan v. Bay
Mills Indian Cmty., 572 U.S. 782, 790 (2014) (tribal
sovereign immunity); Blatchford v. Native Village of
Noatak & Circle Village, 501 U.S. 775, 786 (1991)
(state sovereign immunity).
The patentee’s suggestion that Saint Regis rests
on the authority of Congress to abrogate tribal
sovereign immunity finds no support in the decision or
the statutory scheme. There is no indication in the AIA
or its legislative history that Congress designed IPR to
abrogate tribal immunity. And, contrary to UMN’s
arguments, Saint Regis did not base its reasoning on
implied abrogation of tribal sovereign immunity.
Instead, Saint Regis concluded that IPR was an
agency reconsideration proceeding to which sovereign
immunity does not apply in the first instance. 896 F.3d
at 1329. This reasoning applies equally to states as it
does to tribes.
UMN further contends that, unlike tribal
immunity, there is a presumption (the Hans
presumption) that state sovereign immunity applies to
proceedings, such as IPR, that were “anomalous and
unheard of when the Constitution was adopted.” FMC,
535 U.S. at 755-56 (quoting Hans v. Louisiana, 134

26a
U.S. 1, 18 (1890)). We disagree. First, “it was well
understood at the founding that a patent system could
include a practice of granting patents subject to
potential cancellation in the executive proceeding of
the Privy Council” (i.e., that the executive could
provide a forum for resolving questions of patent
validity). Oil States, 138 S. Ct. at 1376-78. Second, the
Supreme Court recognized in FMC that even though
the Hans presumption applied to bar resolution of
private disputes in an agency forum, it did not bar
resolution of an agency enforcement action against a
state that was initiated based on information supplied
by a third party. FMC, 535 U.S. at 767-68. As we held
in Saint Regis, IPR is properly viewed as an agency’s
reconsideration of a previous patent grant that is
aided by information supplied by a third party, and
state sovereign immunity does not bar these
proceedings.
We conclude that state and tribal sovereign
immunity do not differ in a way that is material to the
question of whether IPR proceedings are subject to
state sovereign immunity. Thus, under the reasoning
of the majority and concurrence in Saint Regis, we
conclude that state sovereign immunity does not apply
to IPR proceedings.20
20

UMN argues that the Supreme Court’s decision in Franchise
Tax Board of California v. Hyatt, 139 S. Ct. 1485, 1495 (2019),
recognizes that “the only forums in which the States have
consented to suits by one another and by the Federal Government
are Article III courts.” UMN contends that this decision supports
its position that IPR proceedings cannot be maintained even if
they are proceedings brought by the United States. Fed. R. App.
P. 28(j) Letter, ECF No. 155. Unlike the current appeal, Hyatt

27a

involved only the question whether state sovereign immunity
barred private suits brought against a state in a sister state’s
courts. The Court answered in the affirmative, overruling
Nevada v. Hall, 440 U.S. 410 (1979). We do not read Hyatt as
holding that state sovereign immunity applies in agency
proceedings initiated by the United States.
First, the sentence in Hyatt relied on by UMN cites FMC as
sole authority for the proposition. The Supreme Court specifically
recognized in FMC that an agency “remains free to investigate
alleged violations . . . either upon its own initiative, or upon
information supplied by a private party, and to institute its own
administrative proceeding against a [state entity].” 535 U.S. at
768 (citation omitted). There is no indication in Hyatt that the
Court intended to undermine FMC. Just as the agency could
bring an enforcement action in FMC, so too can the USPTO
institute an IPR proceeding based on information supplied by a
private party where the final decision is reviewable by an Article
III court.
Second, even if state sovereign immunity might in some
circumstances bar administrative proceedings involving states,
this would not bar the USPTO’s reconsideration of a prior patent
grant because a state impliedly consents to such proceedings
when it applies for, or otherwise obtains ownership of, a patent
that is “a creature of statute law” and granted “subject to
potential cancellation in [an] executive proceeding.” Oil States,
138 S. Ct. at 1374, 1377 (“We conclude that inter partes review is
one of th[e] conditions [for patentability].”). When one sovereign
acquires property under the domain of another, sovereign
immunity does not bar reconsideration of the property grant by
the originating sovereign. See Georgia v. City of Chattanooga, 264
U.S. 472, 479-80 (1924) (“The terms on which Tennessee gave
Georgia permission to acquire and use the land and Georgia’s
acceptance amount to consent that Georgia may be made a party
to condemnation proceedings.”); Upper Skagit Indian Tribe v.
Lundgren, 138 S. Ct. 1649, 1657-61 (2018) (Thomas, J.,
dissenting) (discussing the immovable-property exception to
sovereign immunity).

28a
We finally note, although not implicated in the
facts of this case, the concerns raised by the parties
and amici that if sovereign immunity barred IPR
proceedings against patents obtained by a sovereign,
nothing would prevent a state from lending its
sovereign immunity to private parties, as the tribe
attempted to do in Saint Regis.21 Such manipulation
would undo Congress’ central quality control
mechanism in creating post-grant administrative
proceedings.
CONCLUSION
IPR represents the sovereign’s reconsideration of
the initial patent grant, and the differences between
state and tribal sovereign immunity do not warrant a
different result than in Saint Regis. We therefore
conclude that state sovereign immunity does not apply
to IPR proceedings. In light of the above disposition,
we do not address the issue of whether, if sovereign
immunity were to apply to IPR proceedings, the state
here waived such immunity by asserting patent claims
in district court that were later challenged in a
petition for IPR.
AFFIRMED
COSTS
No costs.
*

21

*

*

See Adam Davidson, Why is Allergan Partnering With The
St. Regis Mohawk Tribe?, The New Yorker, Nov. 13, 2017
(reporting on interest by state universities in commoditizing
sovereign immunity for privately owned patents).

29a
Additional views of DYK, WALLACH, and HUGHES,
Circuit Judges.
While the opinion for the court does not reach the
issue, in our view state sovereign immunity also does
not apply to IPR proceedings because they are in
substance the type of in rem proceedings to which
state sovereign immunity does not apply.
I. In Rem Proceedings
On appeal the parties dispute whether IPR is an
in rem proceeding to which sovereign immunity does
not apply, even if the proceedings are deemed
adversarial as between private parties.
For sovereign immunity purposes, at least in some
contexts the Supreme Court’s “precedent has drawn a
distinction between in rem and in personam
jurisdiction, even when the underlying proceedings
are, for the most part, identical.” Tenn. Student
Assistance Corp. v. Hood, 541 U.S. 440, 453 (2004). In
personam proceedings involve “subjecting a State to
the coercive process of judicial tribunals at the
instance of private parties,” which constitutes an
affront to a state’s dignity. Id. (quoting Seminole Tribe
of Fla. v. Florida, 517 U.S. 44, 58 (1996)); see, e.g., id.
(“The issuance of process . . . is normally an indignity
to the sovereignty of a State because its purpose is to
establish personal jurisdiction over the State.”). In
rem proceedings, where personal jurisdiction need not
be established over a state or its officers, at least in
some contexts, “do[] not, in the usual case, interfere
with state sovereignty even when States’ interests are
affected.” Cent. Va. Cmty. Coll. v. Katz, 546 U.S. 356,
370 (2006) (holding that states have waived sovereign
immunity for certain proceedings brought pursuant to

30a
the Bankruptcy Clause). And, as we describe below,
IPR is an in rem proceeding.
Despite language in some Supreme Court cases
broadly describing the United States’ immunity to in
rem proceedings,1 recognition of state sovereign
immunity in such proceedings has been more limited.
For example, sovereign immunity generally bars quiet
title actions against state-owned real property,
particularly where the dispute is “over a vast reach of
lands and waters long deemed by the State to be an
integral part of its territory.” Idaho v. Coeur d’Alene
Tribe of Idaho, 521 U.S. 261, 281-82 (1997) (citing
Tindal v. Wesley, 167 U.S. 204, 223 (1897)).2 With
state-owned personal property, the Court has
1

See, e.g., The Siren, 74 U.S. 152, 154 (1868) (“[D]irect suits
cannot be maintained against the United States, or against their
property . . . .”); but see The Davis, 77 U.S. 15, 19-20 (1869):
“There are some expressions in the opinion of this court in the
case of The Siren, which seem to imply that no suit in rem can be
instituted against property of the United States under any
circumstances. But a critical examination of the case and the
reasoning of the court, will show that that question was not
involved in the suit, and that it was not intended to assert such a
proposition without qualification.” Davis held that personal
property of the United States in the hands of a common carrier is
not immune to an in rem “proceeding which does not need a
process against the United States, and which does not require
that the property shall be taken out of the possession of the
United States.” 77 U.S. at 21-22; see also California v. Deep Sea
Research, Inc., 523 U.S. 491, 507 (1998) (relying on Davis in the
context of state sovereign immunity).
2

Suits concerning ownership of immovable property owned
by one sovereign, but located in another, may not implicate
sovereign immunity. See Upper Skagit Indian Tribe v. Lundgren,
138 S. Ct. 1649, 1654-55 (2018); id. at 1657-61 (Thomas, J.,
dissenting).

31a
considered whether the disputed property was “owned
by a state and used and employed solely for its
governmental uses and purposes,” because for an
ostensibly in rem proceeding against the state’s
property, “[t]o permit a creditor to seize and sell [the
property] to collect his debt would be to permit him in
some degree to destroy the government itself.” In re
New York, 256 U.S. 503, 510 (1921) (second portion
quoting Klein v. City of New Orleans, 99 U.S. 149, 150
(1878)). In other contexts, the Court has looked to
whether the state is in actual possession of the
disputed property: “an actual possession, and not that
mere constructive possession which is very often
implied by reason of ownership under circumstances
favorable to such implication.” California v. Deep Sea
Research, Inc., 523 U.S. 491, 507 (1998) (quoting The
Davis, 77 U.S. 15, 21 (1869)). This is “consistent with
the principle which exempts the [State] from suit and
its possession from disturbance by virtue of judicial
process.” Id. (alteration in original) (quoting Davis, 77
U.S. at 21).
IPR is distinguishable from these in rem
proceedings where the Court has held that sovereign
immunity applies. Unlike Coeur d’Alene, IPR does not
implicate ownership of real property or the state’s
ability to regulate within its own domain. Cf. Oil
States Energy Servs., LLC v. Green’s Energy Grp.,
LLC, 138 S. Ct. 1365, 1376 n.3 (2018) (“Modern
invention patents . . . are meaningfully different from
land patents.”). Patents are creations of federal
statutory law and are regulated by that law, id. at
1374 (quoting Crown Die & Tool Co. v. Nye Tool &
Mach. Works, 261 U.S. 24, 40 (1923)), which includes
the ability of the executive to consider whether a

32a
previous grant was erroneous, id. at 1376-78 (noting
that “[IPR] is one of th[e] conditions” of patentability).
Patents are also not property that is used by a state
“solely for its governmental uses and purposes.” New
York, 256 U.S. at 510.3 Although a state does not
waive its sovereign immunity merely by participating
in commercial activity,4 as UMN has done here, such
private market participation does not make patents
“public property of a state used and employed for
public and governmental purposes” that would
implicate sovereign immunity in in rem proceedings
under the Supreme Court’s decision in In re New York.
Id. at 510.

3

In recent years states have sought to supplement revenue
by increasing market participation in licensing and enforcing
patents. See Andrew Chung, Schools that Sue: Why More
Universities File Patent Lawsuits, Reuters (Sept. 15, 2015);
Malathi Nayak, Patent-Heavy Schools Look to Courts for IP
Paydays, BNA Intellectual Property Blog (June 14, 2017); Jacob
H. Rooksby, Innovation and Litigation: Tensions Between
Universities and Patents and How to Fix Them, 15 Yale J.L. &
Tech. 312, 330-40 (2013); Tejas N. Narechania, Note, An
Offensive Weapon?: An Empirical Analysis of the “Sword” of State
Sovereign Immunity in State-Owned Patents, 110 Colum. L. Rev.
1574, 1601 (2010). The federal government’s policy of
encouraging commercialization of research performed with
federal funds under the Bayh-Dole Act, Pub. L. No. 96-517, 94
Stat. 3015 (1980), hardly suggests state sovereign immunity bars
administrative reconsideration of an erroneously granted patent.
4

Coll. Sav. Bank v. Fla. Prepaid Postsecondary Educ.
Expense Bd., 527 U.S. 666, 685 (1999) (“[A] suit by an individual
against an unconsenting State is the very evil at which the
Eleventh Amendment is directed—and it exists whether or not
the State is acting for profit, in a traditionally ‘private’ enterprise,
and as a ‘market participant.’”).

33a
Also, because patents are intangible property—a
right to exclude—the concern of protecting the state’s
“possession from disturbance” is not applicable for IPR
where ownership is not disputed. Deep Sea, 523 U.S.
at 507. A state cannot “actual[ly] possess[]” a patent
even if the state otherwise claims ownership, see id.
(quoting Davis, 77 U.S. at 21), and the Board does not
physically intrude into the state’s domain to obtain
jurisdiction over a patent or to resolve the issue of its
validity. We do not distinguish between tangible and
intangible property, but instead between property
that is physically possessed by a state and property
that is not. Thus, IPR does not disturb a state’s actual
possession even if a state-owned patent is found to
have been erroneously granted.
Not only is an IPR proceeding unlike in rem
proceedings held to implicate sovereign immunity,
IPR is closely akin to proceedings where the Supreme
Court has concluded sovereign immunity is not a bar;
for example, in rem bankruptcy proceedings involving
discharge of a debt owed to the state. In Tennessee
Student Assistance Corp. v. Hood, an individual
received student loans from the state of Tennessee and
then later sought discharge of the state debt in
bankruptcy proceedings. 541 U.S. at 444-45. She
served the state with her complaint and a summons.
Id. The state moved to dismiss the complaint based on
state sovereign immunity. Id. at 445. The Court held
that the state enjoyed no sovereign immunity because
of the in rem character of the bankruptcy proceedings.
“The discharge of a debt by a bankruptcy court is
. . . an in rem proceeding,” id. at 447, as “the court’s
jurisdiction is premised on the res, not on the
persona,” id. at 450. Although “States, whether or not

34a
they choose to participate in the proceeding, are bound
by a bankruptcy court’s discharge order no less than
other creditors,” id. at 448, the “debtor does not seek
monetary damages or any affirmative relief from a
State by seeking to discharge a debt; nor does he
subject an unwilling State to coercive judicial process,”
id. at 450. In this way, “the court’s exercise of its in
rem jurisdiction to discharge a student loan debt is not
an affront to the sovereignty of the State.” Id. at 451
n.5.
IPR is similarly an in rem proceeding—a
proceeding to reevaluate the validity of an issued
patent. See Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct.
2131, 2144 (2016) (noting “that the proceeding offers a
second look at an earlier administrative grant of a
patent”). Just as with a bankruptcy proceeding to
discharge a debt, IPR is an in rem proceeding that is
not premised on obtaining jurisdiction over a state or
its officers. The Board’s jurisdiction is premised on the
res (i.e., the patent). A person files a “petition to
institute an inter partes review of the patent.” 35
U.S.C. § 311(a) (emphasis added). As in bankruptcy, a
petitioner for IPR “does not seek monetary damages or
any affirmative relief from a State by seeking to [have
a patent reviewed in IPR]; nor does he subject an
unwilling State to a coercive judicial process.” Hood,
541 U.S. at 450. “[IPR] does not make any binding
determination regarding ‘the liability of [one party to
another] under the law as defined.’” Oil States, 138
S. Ct. at 1378 (quoting Crowell v. Benson, 285 U.S. 22,
51 (1932)). The petitioner only seeks to have the
agency reconsider a previous grant of a patent, and the
only relief the Board can offer is the revocation of
erroneously granted patent claims. IPR ultimately

35a
terminates only with a certificate that either cancels
erroneously granted patent claims, confirms claims
determined to be patentable, or incorporates newly
amended claims determined to be patentable. 35
U.S.C. § 318(b). No monetary or other relief against
the patent owner is authorized or provided.5
Additionally, similar to the state’s situation in
Hood, there is no statutory requirement compelling a
state to participate in IPR as a patent owner, even if it
is otherwise motivated to do so.6 The parallels between
5

To the extent the estoppel provisions in 37 C.F.R.
§ 42.73(d)(3), prevent a patent owner from obtaining a patent on
claims that are patentably indistinct from cancelled claims in an
IPR proceeding, that result is no different than what is mandated
under traditional principles of res judicata and collateral
estoppel. See B&B Hardware, Inc. v. Hargis Indus., Inc., 135
S. Ct. 1293 (2015); MaxLinear, Inc. v. CF CRESPE LLC, 880 F.3d
1373 (Fed. Cir. 2018); Ohio Willow Wood Co. v. Alps South, LLC,
735 F.3d 1333 (Fed. Cir. 2013). In the absence of such a provision,
the result would still be the same (i.e., the later claim is
unpatentable for the same reasons as the earlier patentably
indistinct claim).
6

It is questionable whether a patentee risks default by failing
to participate in the IPR proceedings. While the Board has on
occasion interpreted non-participation as abandonment under 37
C.F.R. § 42.73(b)(4), see, e.g., VDF Futurceuticals, Inc. v.
Kazerooni, No. IPR2017-00547, 2018 WL 842176 (P.T.A.B. Feb.
9, 2018), it is questionable whether a default judgment could be
entered cancelling a patent if the state owner does not
participate. See 35 U.S.C. § 313 (“[T]he patent owner shall have
the right to file a preliminary response . . . .” (emphasis added));
37 C.F.R. § 42.107(a) (“The patent owner may file a preliminary
response to the petition.” (emphasis added)); 35 U.S.C. § 316(a)(8)
(requiring regulation “providing for the filing by the patent owner
of a response to the petition”); 37 C.F.R. § 42.120 (“A patent
owner may file a response to the petition . . . .” (emphasis added)).

36a
IPR and the bankruptcy proceedings in Hood reinforce
the conclusion that IPR do not raise the concerns that
have animated application of sovereign immunity for
certain in rem proceedings.
The USPTO’s “second look at an earlier
administrative grant of a” public franchise does not
constitute an affront to a state’s sovereignty, Cuozzo,
136 S. Ct. at 2144, particularly where the only possible
adverse outcome is the cancellation of erroneously
granted claims. Although patent law, like bankruptcy,
is a specialized area of law, we see no reason why the
exercise of the executive’s historically well-recognized
ability to reconsider a grant of a public franchise in an
in rem proceeding “is more threatening to state
sovereignty than the exercise of” an Article III court’s
bankruptcy in rem jurisdiction. Hood, 541 U.S. at 451.
Therefore, it seems to us that IPR proceedings are
the type of in rem proceedings to which state sovereign
immunity does not apply.

It is the petitioner that “shall have the burden of proving a
proposition of unpatentability by a preponderance of the
evidence.” 35 U.S.C. § 316(e).

37a
APPENDIX B
________________________________
Paper 19
Entered: December 19, 2017
UNITED STATES PATENT
AND TRADEMARK OFFICE
________________________________
BEFORE THE
PATENT TRIAL AND APPEAL BOARD
________________________________
LSI CORPORATION and AVAGO TECHNOLOGIES
U.S., INC., Petitioner,
v.
REGENTS OF THE UNIVERSITY OF
MINNESOTA, Patent Owner.
________________________________
Case IPR2017-01068
Patent 5,859,601
________________________________
Before DAVID P. RUSCHKE, Chief Administrative
Patent Judge, SCOTT R. BOALICK, Deputy Chief
Administrative
Patent
Judge,
JACQUELINE
WRIGHT BONILLA, SCOTT C. WEIDENFELLER,
Vice Chief Administrative Patent Judges, ROBERT J.
WEINSCHENK, CHARLES J. BOUDREAU, and
JACQUELINE T. HARLOW, Administrative Patent
Judges.

38a
Opinion for the Board filed by Chief Administrative
Patent Judge RUSCHKE.
Opinion Concurring filed by Administrative Patent
Judge HARLOW.
ORDER
Denying Patent Owner’s Motion to Dismiss
37 C.F.R. §§ 42.5, 42.71
I. INTRODUCTION
Regents of the University of Minnesota (“Patent
Owner”) filed a Motion to Dismiss (Paper 10, “Motion”
or “Mot.”) the Petition for an inter partes review (Paper
1, “Petition” or “Pet.”) in this proceeding. Specifically,
Patent Owner contends that it is entitled to avoid this
proceeding entirely because it is a sovereign that is
immune to our authority under the Eleventh
Amendment to the U.S. Constitution. Mot. 1, 15. LSI
Corporation and Avago Technologies U.S., Inc.
(collectively, “Petitioner”) filed an Opposition to the
Motion (Paper 11, “Opposition” or “Opp.”), to which
Patent Owner filed a Reply in Support of the Motion
(Paper 13, “Reply”). For the reasons discussed below,
the Motion is denied.
II. PANEL EXPANSION
Our standard operating procedures provide the
Chief Judge with discretion to expand a panel to
include more than three judges. PTAB SOP 1, 2-5
(§§ II, III) (Rev. 14); see id. at 2 (introductory language
explaining that the Director has delegated to the Chief
Judge the authority to designate panels under 35
U.S.C. § 6); see also In re Alappat, 33 F.3d 1526, 1532
(Fed. Cir. 1994) (abrogated on other grounds by In re

39a
Bilski, 545 F.3d 943 (Fed. Cir. 2008)) (providing that
Congress “expressly granted the [Director] the
authority to designate expanded Board panels made
up of more than three Board members.”). The Chief
Judge may consider panel expansions upon a
“suggestion” from a judge, panel, or party in a postissuance review created by the Leahy-Smith America
Invents Act, Pub. L. No. 112-29, 125 Stat. 284 (2011)
(“AIA”), such as an inter partes review. Id. at 3-4; see
also Apple Inc. v. Rensselaer Polytechnic Inst., Case
IPR2014-00319, slip op. at 2 n.1 (PTAB Dec. 12, 2014)
(Paper 20) (expanded panel) (per curiam).
The standard operating procedure sets forth some
of the reasons for which the Chief Judge may expand
a panel. PTAB SOP 1, 3-4 (§ III.A). For example, an
expanded panel may be appropriate when “[t]he
proceeding or AIA Review involves an issue of
exceptional importance.” Id. (§ III.A.1). An expanded
panel may also be appropriate when “necessary to
secure and maintain uniformity of the Board’s
decisions.” Id. (§ III.A.2).
In this case, the Chief Judge has considered
whether expansion is warranted, and has decided to
expand the panel due to the exceptional nature of the
issues presented.1 As we discuss further below, the
issues of whether a State can claim Eleventh
Amendment immunity and whether such immunity
may be waived have been raised in this proceeding.
1

Consistent with the standard operating procedure, the
Judges on the merits panel in this case have been designated as
part of the expanded panel, and the Chief Judge, Deputy Chief
Judge, and Vice Chief Judges Bonilla and Weidenfeller have been
added to the panel. PTAB SOP 1, 4 (§ III.E).

40a
These issues are of an exceptional nature. The
Eleventh Amendment immunity issue continues to be
raised in multiple cases before the Board. We have not
had occasion to address the waiver issue before, but it
has been raised in multiple cases before the Board.
The Chief Judge also has determined that an
expanded panel is warranted to ensure uniformity of
the Board’s decisions involving these issues.
III. ANALYSIS
Petitioner does not dispute that Patent Owner is
a State entity that can claim sovereign immunity
under the Eleventh Amendment, at least with respect
to this Motion. See Mot. 9-13; Opp. 6 n.4. The parties
disagree,
though,
about
whether
Eleventh
Amendment immunity can be invoked in an inter
partes review. Mot. 2-9; Opp. 1-4. We agree with
Patent Owner that “an IPR is an adjudicatory
proceeding of a federal agency from which States are
immune.” Mot. 8 (citing Covidien LP v. Univ. of Fla.
Research Found., Inc., Case IPR2016-01274, slip op. at
24, (PTAB Jan. 25, 2017) (Paper 21)). Nevertheless,
we determine, for the reasons discussed below, that
Patent Owner has waived its Eleventh Amendment
immunity by filing an action in federal court alleging
infringement of the patent being challenged in this
proceeding.
A.

Patent Owner May Assert Eleventh Amendment
Immunity

The Board has previously determined that
Eleventh Amendment immunity is available to States
as a defense in an inter partes review proceeding.
Reactive Surfaces Ltd., LLP v. Toyota Motor Corp.,
Case IPR2016-01914 (PTAB July 13, 2017) (Paper 36)

41a
(granting in part motion to dismiss and dismissing
Regents of the University of Minnesota from an inter
partes review proceeding); NeoChord, Inc. v. Univ. of
Md., Balt., Case IPR2016-00208 (PTAB May 23, 2017)
(Paper 28) (granting motion to dismiss and
terminating an inter partes review); Covidien LP v.
Univ. of Fla. Research Found. Inc., Case IPR201601274 (PTAB Jan. 25, 2017) (Paper 21) (granting
motion to dismiss and dismissing three Petitions
requesting an inter partes review). We agree.
The Supreme Court has held that the rules and
practice of procedure of the Federal Maritime
Commission are sufficiently similar to civil litigation
for the State of South Carolina to raise Eleventh
Amendment immunity as a defense to participation in
a proceeding seeking damages and injunctive relief
against the South Carolina State Ports Authority. See
Fed. Mar. Comm’n v. S.C. State Ports Auth., 535 U.S.
743, 757-58, 765-66 (2002) (“FMC”). Applying FMC,
the Federal Circuit has held that Eleventh
Amendment immunity is available in interference
proceedings before the Board of Patent Appeals and
Interferences (the predecessor of the PTAB) because
interferences are sufficiently similar in procedure to
civil litigation, i.e., they involve adverse parties,
examination and cross-examination by deposition of
witnesses, production of documentary evidence,
findings by an impartial federal adjudicator, and
power to implement the decision. Vas-Cath, Inc. v.
Curators of Univ. of Mo., 473 F.3d 1376, 1381-82 (Fed.
Cir. 2007).
Patent Owner asserts that inter partes reviews
are sufficiently similar in procedure to interferences
and other adjudicatory proceedings such that

42a
Eleventh Amendment immunity is available as a
defense in both types of proceedings. See Mot. 3-8. We
agree with Patent Owner. In keeping with Vas-Cath,
we determine that inter partes reviews, like
interferences, are similar to court proceedings
inasmuch as they involve adverse parties,
examination of witnesses, cross-examination by
deposition, findings by an impartial adjudicator,
power to implement the adjudicator’s decision, the
ability of the adjudicator to set a time for filing
motions and for discovery, and application of the
Federal Rules of Evidence. See generally NeoChord,
slip op. at 6-7 (Paper 28). Patent Owner, therefore, is
entitled to rely on its Eleventh Amendment immunity
in inter partes reviews, as appropriate.2 That
determination, however, does not end our inquiry in
this case.

2

As the Supreme Court and my concurring colleague
correctly note, in many “significant respects, inter partes review
is less like a judicial proceeding and more like a specialized
agency proceeding.” Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct.
2131, 2143 (2016). Indeed, we rely on the differences between
court and agency proceedings in reaching our determination that
Patent Owner has waived its Eleventh Amendment immunity in
this matter. See infra at 9-10. We respectfully disagree,
nevertheless, that those differences alone provide a sufficient
basis to conclude that “Congress had the power to compel States
to surrender their sovereign immunity” wholesale in a proceeding
that so closely resembles court proceedings. Fla. Prepaid
Postsecondary Educ. Expense Bd. v. Coll. Sav. Bank, 527 U.S.
627, 635 (1999).

43a
B. Patent Owner Waived its Eleventh Amendment
Immunity
We must now decide whether, and in what
circumstances, a State may waive its Eleventh
Amendment immunity before us. Previous Board
decisions have not involved a State that filed an action
in federal court alleging infringement of the same
patent being challenged in the petition for an inter
partes review. Here, Patent Owner has filed such an
action, and, accordingly, Petitioner argues that Patent
Owner waived its Eleventh Amendment immunity by
filing such an action. Opp. 4-12. We agree with
Petitioner that the filing of an action in federal court
alleging infringement effectively waives Patent
Owner’s Eleventh Amendment immunity defense.
A State’s waiver of Eleventh Amendment
immunity in one action does not necessarily extend to
a separate action, even if the separate action involves
the same parties and the same subject matter.
Biomedical Patent Mgmt. Corp. v. Cal., Dep’t of Health
Servs., 505 F.3d 1328, 1339 (Fed. Cir. 2007) (“BPMC”).
But there is not “a bright-line rule whereby a State’s
waiver of sovereign immunity can never extend to a
. . . separate lawsuit.” Id. Instead, the rule governing
waiver of immunity by litigation conduct rests on the
need to avoid unfairness and inconsistency, and to
prevent a State from selectively using its immunity to
achieve a litigation advantage. Lapides v. Bd. of
Regents of Univ. Sys. of Ga., 535 U.S. 613, 620 (2002);
BPMC, 505 F.3d at 1340.
The facts presented here are similar to those in
Regents of Univ. of New Mexico v. Knight, 321 F.3d
1111, 1125-26 (Fed. Cir. 2003) (“Knight”), where a

44a
State was found to have waived its Eleventh
Amendment
immunity
as
to
compulsory
counterclaims. Specifically, the Federal Circuit
explained that “because a state as plaintiff can surely
anticipate that a defendant will have to file any
compulsory counterclaims or be forever barred from
doing so, it is not unreasonable to view the state as
having consented to such counterclaims.” Id. at 1126
(emphasis added). Similarly, a party served with a
patent infringement complaint in federal court must
request an inter partes review of the asserted patent
within one year of service of that complaint or be
forever barred from doing so. See 35 U.S.C. § 315(b).
Thus, it is reasonable to view a State that files a patent
infringement action as having consented to an inter
partes review of the asserted patent.3 See Knight, 321
F.3d at 1126. That is particularly true where, as here,
the State filed its patent infringement action well after
the AIA was enacted. See, e.g., Mot. 1 (indicating that
Patent Owner filed suit on August 25, 2016).
Further, when a State files a patent infringement
action in federal court, it is the State’s litigation
conduct that triggers the one-year statutory bar for an
inter partes review. See 35 U.S.C. § 315(b). It would be
unfair and inconsistent to allow a State to avail itself
of the federal government’s authority by filing a patent
infringement action in federal court, but then
3

We do not conclude that an inter partes review is a
compulsory counterclaim under Fed. R. Civ. P. 13(a). Rather, we
determine that the rationale given in Knight, 321 F.3d at 1126,
for holding that a State waived its Eleventh Amendment
immunity as to a compulsory counterclaim similarly supports
determining that Patent Owner waived its Eleventh Amendment
immunity as to this proceeding.

45a
selectively invoke its sovereign immunity to ensure
that a defendant is barred from requesting an inter
partes review of the asserted patent from a different
branch of that same federal government. See Lapides,
535 U.S. at 619-20; Tegic Commc’ns Corp. v. Bd. of
Regents of Univ. of Tex. Sys., 458 F.3d 1335, 1341-42
(Fed. Cir. 2006) (emphasizing the need “to look to the
substantive charge, not to the procedure for obtaining
relief” in order to avoid the “‘seriously unfair results’
[that] could result if a state were permitted to file suit
in a federal court and at the same time claim
immunity against the defendant’s claims arising from
the same conduct” (quoting Knight, 321 F.3d at 1125)).
In fact, Patent Owner acknowledged as much in
its motion to dismiss in Reactive Surfaces. IPR201601914, Paper 23, 18-20. In that case, Patent Owner
addressed a hypothetical (as of the date of this
decision) scenario in which a patent assertion entity
(“PAE”) assigned ownership of a patent to a State in
order to invoke Eleventh Amendment immunity and
avoid an inter partes review. Id. at 18. Patent Owner
acknowledged that the State would have to join any
infringement action, and that “[b]y voluntarily
invoking federal jurisdiction in the infringement
litigation, the [S]tate entity could be deemed to have
waived its sovereign immunity to the IPR process,
which would deprive the PAE of any litigation
advantage it might have hoped for.” Id. at 19-20.
Patent Owner attempts to distinguish that
hypothetical scenario from this case because it
involved a State acting together with a PAE. Reply 4.
We fail to see, though, how a State selectively
asserting its sovereign immunity to achieve a

46a
litigation advantage for itself, rather than a PAE, is
less unfair to a defendant.
The crux of Patent Owner’s argument in this
proceeding is that any waiver of Eleventh Amendment
immunity should be limited to the venue where Patent
Owner filed its action. Mot. 13-15 (citing A123 Sys.,
Inc. v. Hydro-Quebec, 626 F.3d 1213, 1219-20 (Fed.
Cir. 2010); Tegic, 458 F.3d at 1342, 1344-45); Reply 34. Although waiver is generally limited in this way in
our court system, which is arranged geographically, it
is not a bright-line rule. BPMC, 505 F.3d at 1339.
Indeed, “[a]n animating principle of Lapides is that a
state should not reap litigation advantages through its
selection of a forum and subsequent assertion of
sovereign immunity as a defense.” Bd. of Regents of
Univ. of Wis. Sys. v. Phoenix Int’l Software, Inc., 653
F.3d 448, 466 (7th Cir. 2011). And the authority on
which Patent Owner relies does not address waiver
with respect to separate proceedings in a single forum
created by Congress, such as the post-issuance review
proceedings under the AIA.
In any event, the cases cited by Patent Owner are
distinguishable. In those cases, a private party was
not permitted to assert claims against a State in a
different forum from the one in which the State filed
its action. A123 Sys., 626 F.3d at 1219-20; Tegic, 458
F.3d at 1342-44. The private party, however, did not
suffer any substantial unfairness from that result
because the private party could still assert the exact
same claims in the forum where the State filed its
action. A123 Sys., 626 F.3d at 1216 (“A123 had an
adequate remedy because UT has waived Eleventh
Amendment immunity in the Northern District of
Texas.”); Tegic, 458 F.3d at 1344 (“It has not been

47a
shown . . . that the adjudication of Tegic’s claims of
noninfringement and invalidity is not available in the
Texas action.”).
In contrast, here, Petitioner cannot seek an inter
partes review in the district court where Patent Owner
filed its patent infringement action. We recognize that
Petitioner may be able to assert a defense and/or
counterclaim challenging the validity of the asserted
patent in the district court where Patent Owner filed
its action. Reply 4-5. But, even though an inter partes
review has characteristics that are similar to district
court litigation, the proceedings are not the same. See
Cuozzo, 136 S. Ct. at 2143-44. Therefore, allowing
Patent Owner to assert its Eleventh Amendment
immunity in this proceeding selectively so as to bar
Petitioner, a defendant sued by Patent Owner, from
obtaining the benefits of an inter partes review of the
asserted patent would result in substantial unfairness
and inconsistency. See Lapides, 535 U.S. at 620.
For the foregoing reasons, we determine that
Patent Owner has waived its Eleventh Amendment
immunity by filing an action in federal court alleging
infringement of the patent being challenged in this
proceeding.
IV. ORDER
In consideration of the foregoing, it is hereby:
ORDERED that Patent Owner’s Motion to
Dismiss is denied.
*

*

*

48a
HARLOW, Administrative Patent Judge, concurring.
I write separately to express my view that a state
university, having availed itself of Patent Office
procedures to secure patent rights from the public,
may not subsequently invoke sovereign immunity as a
shield against reconsideration by the Patent Office in
an inter partes review proceeding of whether the
agency improvidently granted a patent monopoly in
the first instance.1
Sovereign immunity has been found to attach to
administrative proceedings where those actions
resemble civil litigation. See Fed. Mar. Comm’n v. S.C.
State Ports Auth., 535 U.S. 743, 753-761 (2002)
(“FMC”). Inter partes review cannot be said, however,
to bear the same marks of civil litigation as previously
considered
administrative
matters.
Obvious
differences exist, for example, between the U.S. Patent
and Trademark Office’s review of a patent procured
from that agency by a State, and the Federal Maritime
Commission’s review of a State’s refusal to berth a
cruise ship at port facilities within the sovereign
borders of a State that are managed by a State
authority. See FMC, 535 U.S. at 748-49. The
adjudication at issue in FMC, after all, implicated a
power with unmistakably sovereign characteristics—
the ability of a State to control access to its territory.

1

I am mindful that resolution of the instant motion requires
us to address important constitutional issues that “are unsuited
to resolution in administrative hearing procedures,” Califano v.
Sanders, 430 U.S. 99, 109 (1977), and further highlight that
“access to the courts is essential to the decision of such questions.”
Id.

49a
Far removed from any question of territorial
control, inter partes review represents no more than
the Patent Office’s reconsideration of its initial
decision to “take[] from the public rights of immense
value, and bestow[] them upon the patentee” in the
form of a patent grant. United States v. Am. Bell Tel.
Co., 128 U.S. 315, 370 (1888). As the Supreme Court
has explained, the “basic purpose[]” of inter partes
review is “to reexamine an earlier agency decision,”
and thereby “help[] protect the public’s ‘paramount
interest in seeing that patent monopolies . . . are kept
within their legitimate scope.’” Cuozzo Speed Techs.,
LLC v. Lee, 136 S. Ct. 2131, 2144 (2016) (quoting
Precision Instrument Mfg. Co. v. Auto. Maint. Mach.
Co., 324 U.S. 806, 816 (1945)); see also MCM Portfolio
LLC v. Hewlett-Packard Co., 812 F.3d 1284, 1293 (Fed.
Cir. 2015) (explaining that “patent rights are public
rights,” and “their validity [is] susceptible to review by
an administrative agency.”). Allowing a State to
secure monopoly rights from the Patent Office, while
simultaneously foreclosing Patent Office reappraisal
of that decision via inter partes review, would thwart
“the important public interest in permitting full and
free competition in the use of ideas which are in reality
a part of the public domain.” Lear, Inc. v. Adkins, 395
U.S. 653, 670 (1969).
The essential nature of inter partes review as a
reevaluation by the Patent Office of its decision to
grant a patent, rather than as an administrative
analog to civil litigation, is evident from the relief
available, which differs both in degree and in kind
from that afforded in federal district court. At its core,
inter partes review is a circumscribed in rem
proceeding, in which the Patent Office exercises

50a
jurisdiction over the patent challenged, rather than
the parties named; “it does not implicate States’
sovereignty to nearly the same degree as other kinds
of jurisdiction.” Cent. Va. Cmty. Coll. v. Katz, 546 U.S.
356, 362 (2006). Such proceedings are authorized
solely to address whether the Patent Office should
“cancel as unpatentable 1 or more claims of a patent
only on a ground that could be raised under section
102 or 103 [of the Patent Act] and only on the basis of
prior art consisting of patents or printed publications.”
35 U.S.C. § 311(b). Once inter partes review is
commenced, the patent owner may, as a matter of
right, “file 1 motion to amend the patent,” 35 U.S.C.
§ 316(d)––“just what he would do in the examination
process.” Cuozzo, 136 S. Ct. at 2145 (citing 35 U.S.C.
§ 316(d) (2012)). No equivalent procedure is available
in the federal district courts, which assess the validity
only of static patent claims.
The ultimate remedy available from inter partes
review likewise mirrors the patent examination
process more closely than it does federal district court
litigation, where a patent monopoly may be enforced
through charges of patent infringement. Without
resort to the damages or injunctive relief that may be
awarded when infringement is proved in federal court,
the lone remedy issuable by the Patent Office in an
inter partes review proceeding is the publication, by
the Director, of a certificate canceling, confirming, or
amending the challenged claims. 35 U.S.C. § 318(b). In
addition, the freedom of the Director to “stay, transfer,
consolidat[e], terminat[e],” or otherwise determine
how either matter should proceed when a patent is
concurrently subject to an inter partes review and
another action in the Office, 35 U.S.C. § 315(d),

51a
further differentiates inter partes review from civil
litigation.
Inter partes review does not seek to resolve
relationships between parties, or even require that the
petitioner have Article III standing to proceed. See 35
U.S.C. § 311(a). Indeed, notwithstanding the absence
of an existing legal dispute concerning the patent-inquestion, so long as a prospective petitioner “is not the
owner of [that] patent,” that party is eligible, subject
to additional statutory provisions, to file a petition for
inter partes review. 35 U.S.C. § 311(a). Consistent
with this focus on the patent, rather than on the
parties, participation by the parties subsequent to
institution is not required for an inter partes review to
go forward. 35 U.S.C. § 317(a) (“If no petitioner
remains in the inter partes review, the Office may
terminate the review or proceed to a final written
decision under section 318(a).”). Even in the event of
settlement between the parties, the Board remains
free to “independently determine any question of
jurisdiction, patentability, or Office practice.” 37
C.F.R. § 42.74(a). Similarly, the Patent Office “may
intervene in a later judicial proceeding” to defend its
cancellation of an improperly granted patent, “even if
the private challengers drop out.” Cuozzo, 136 S. Ct. at
2144 (emphasis omitted); see 35 U.S.C. § 143.
Indeed, the Supreme Court has emphasized these
aspects of inter partes review in its recognition that in
“significant respects, inter partes review is less like a
judicial proceeding and more like a specialized agency
proceeding.” Cuozzo, 136 S. Ct. at 2143; see also
Achates Reference Publ’g, Inc. v. Apple Inc., 803 F.3d
652, 657-58 (Fed. Cir. 2015) (holding that procedural
limits placed on when certain parties must file for

52a
review do not relate to the Board’s ultimate authority
to invalidate a patent); 35 U.S.C. § 303(a) (“On his own
initiative, and any time, the Director may determine
whether a substantial new question of patentability is
raised by patents and publications discovered by him
or cited under the provisions of section 301 or 302.”).
To my eye, therefore, far from implicating the
sovereignty or dignity of the states, inter partes review
simply provides a streamlined, specialized mechanism
by which the Patent Office may reconsider a patent
grant and correct any mistake. Accordingly, because
inter partes review neither “walks, talks, [nor]
squawks” like a lawsuit, FMC, 535 U.S. at 757
(internal quotation omitted), I conclude that sovereign
immunity does not bar the Patent Office from
conducting inter partes review of a patent owned by a
state university. Thus, while I agree with my
colleagues that Patent Owner’s Motion to Dismiss
should be denied, I reach that conclusion for markedly
different reasons.

53a
APPENDIX C
________________________________
Paper 14
Entered: December 19, 2017
UNITED STATES PATENT
AND TRADEMARK OFFICE
________________________________
BEFORE THE
PATENT TRIAL AND APPEAL BOARD
________________________________
ERICSSON INC. and TELFONAKTIEBOLAGET LM
ERICSSON, Petitioner,
v.
REGENTS OF THE UNIVERSITY OF
MINNESOTA, Patent Owner.
________________________________
Cases IPR2017-01186 (Patent 8,774,309 B2)
IPR2017-01197 (Patent 7,251,768 B2)
IPR2017-01200 (Patent 8,718,185 B2)
IPR2017-01213 (Patent 8,588,317 B2)
IPR2017-01214 (Patent RE45,230 E)
IPR2017-01219 (Patent RE45,230 E)
________________________________
Before DAVID P. RUSCHKE, Chief Administrative
Patent Judge, SCOTT R. BOALICK, Deputy Chief
Administrative
Patent
Judge,
JACQUELINE
WRIGHT BONILLA, SCOTT C. WEIDENFELLER,
Vice Chief Administrative Patent Judges, JENNIFER

54a
S. BISK, ROBERT J. WEINSCHENK, and CHARLES
J. BOUDREAU, Administrative Patent Judges.
Opinion for the Board filed by Chief Administrative
Patent Judge RUSCHKE.
Opinion Concurring filed by Administrative Patent
Judge BISK.
ORDER
Denying Patent Owner’s Motion to Dismiss
37 C.F.R. §§ 42.5, 42.71
I. INTRODUCTION
Regents of the University of Minnesota (“Patent
Owner”) filed a Motion to Dismiss (Paper 8,1 “Motion”
or “Mot.”) the Petition for an inter partes review (Paper
1, “Petition” or “Pet.”) in this proceeding. Specifically,
Patent Owner contends that it is entitled to avoid this
proceeding entirely because it is a sovereign that is
immune to our authority under the Eleventh
Amendment to the U.S. Constitution. Mot. 1, 2, 15.
Ericsson Inc. and Telefonaktiebolaget LM Ericsson
(collectively, “Petitioner”) filed an Opposition to the
Motion (Paper 10, “Opposition” or “Opp.”), to which
Patent Owner filed a Reply in Support of the Motion
(Paper 11, “Reply”). For the reasons discussed below,
the Motion is denied.
II. PANEL EXPANSION
Our standard operating procedures provide the
Chief Judge with discretion to expand a panel to

1

IPR2017-01186, IPR2017-01197, IPR2017-01200, IPR201701213, IPR2017-01214, and IPR2017-01219 include similar
papers and exhibits. Accordingly, all citations are to IPR201701186 unless otherwise noted.

55a
include more than three judges. PTAB SOP 1, 2-5
(§§ II, III) (Rev. 14); see id. at 2 (introductory language
explaining that the Director has delegated to the Chief
Judge the authority to designate panels under 35
U.S.C. § 6); see also In re Alappat, 33 F.3d 1526, 1532
(Fed. Cir. 1994) (abrogated on other grounds by In re
Bilski, 545 F.3d 943 (Fed. Cir. 2008)) (providing that
Congress “expressly granted the [Director] the
authority to designate expanded Board panels made
up of more than three Board members.”). The Chief
Judge may consider panel expansions upon a
“suggestion” from a judge, panel, or party in a postissuance review created by the Leahy-Smith America
Invents Act, Pub. L. No. 112-29, 125 Stat. 284 (2011)
(“AIA”), such as an inter partes review. Id. at 3-4; see
also Apple Inc. v. Rensselaer Polytechnic Inst., Case
IPR2014-00319, slip op. at 2 n.1 (PTAB Dec. 12, 2014)
(Paper 20) (expanded panel) (per curiam).
The standard operating procedure sets forth some
of the reasons for which the Chief Judge may expand
a panel. PTAB SOP 1, 3-4 (§ III.A). For example, an
expanded panel may be appropriate when “[t]he
proceeding or AIA Review involves an issue of
exceptional importance.” Id. (§ III.A.1). An expanded
panel may also be appropriate when “necessary to
secure and maintain uniformity of the Board’s
decisions.” Id. (§ III.A.2).
In this case, the Chief Judge has considered
whether expansion is warranted, and has decided to
expand the panel due to the exceptional nature of the

56a
issues presented.2 As we discuss further below, the
issues of whether a State can claim Eleventh
Amendment immunity and whether such immunity
may be waived have been raised in this proceeding.
These issues are of an exceptional nature. The
Eleventh Amendment immunity issue continues to be
raised in multiple cases before the Board. We have not
had occasion to address the waiver issue before, but it
has been raised in multiple cases before the Board.
The Chief Judge also has determined that an
expanded panel is warranted to ensure uniformity of
the Board’s decisions involving these issues.
III. ANALYSIS
Petitioner does not dispute that Patent Owner is
a State entity that can claim sovereign immunity
under the Eleventh Amendment, at least with respect
to this Motion. See Mot. 8-11; Opp. 1-2. The parties
disagree,
though,
about
whether
Eleventh
Amendment immunity can be invoked in an inter
partes review. Mot. 2-8; Opp. 13-15. We agree with
Patent Owner that an “IPR is an adjudicatory
proceeding of a federal agency from which state
entities are immune.” Mot. 7-8 (citing Covidien LP v.
Univ. of Fla. Research Found., Inc., Case IPR201601274 (PTAB Jan. 25, 2017) (Paper 21) and NeoChord,
Inc. v. Univ. of Md., Balt., Case IPR2016-00208 (PTAB
May 23, 2017) (Paper 28)). Nevertheless, we
determine, for the reasons discussed below, that
2

Consistent with the standard operating procedure, the
Judges on the merits panel in this case have been designated as
part of the expanded panel, and the Chief Judge, Deputy Chief
Judge, and Vice Chief Judges Bonilla and Weidenfeller have been
added to the panel. PTAB SOP 1, 4 (§ III.E).

57a
Patent Owner has waived its Eleventh Amendment
immunity by filing an action in federal court alleging
infringement of the patent being challenged in this
proceeding.
A.

Patent Owner May Assert Eleventh Amendment
Immunity

The Board has previously determined that
Eleventh Amendment immunity is available to States
as a defense in an inter partes review proceeding.
Reactive Surfaces Ltd., LLP v. Toyota Motor Corp.,
Case IPR2016-01914 (PTAB July 13, 2017) (Paper 36)
(granting in part motion to dismiss and dismissing
Regents of the University of Minnesota from an inter
partes review proceeding); NeoChord, Inc. v. Univ. of
Md., Balt., Case IPR2016-00208 (PTAB May 23, 2017)
(Paper 28) (granting motion to dismiss and
terminating an inter partes review); Covidien LP v.
Univ. of Fla. Research Found. Inc., Case IPR201601274 (PTAB Jan. 25, 2017) (Paper 21) (granting
motion to dismiss and dismissing three Petitions
requesting an inter partes review). We agree.
The Supreme Court has held that the rules and
practice of procedure of the Federal Maritime
Commission are sufficiently similar to civil litigation
for the State of South Carolina to raise Eleventh
Amendment immunity as a defense to participation in
a proceeding seeking damages and injunctive relief
against the South Carolina State Ports Authority. See
Fed. Mar. Comm’n v. S.C. State Ports Auth., 535 U.S.
743, 757-58, 765-66 (2002) (“FMC”). Applying FMC,
the Federal Circuit has held that Eleventh
Amendment immunity is available in interference
proceedings before the Board of Patent Appeals and

58a
Interferences (the predecessor of the PTAB) because
interferences are sufficiently similar in procedure to
civil litigation, i.e., they involve adverse parties,
examination and cross-examination by deposition of
witnesses, production of documentary evidence,
findings by an impartial federal adjudicator, and
power to implement the decision. Vas-Cath, Inc. v.
Curators of Univ. of Mo., 473 F.3d 1376, 1381-82 (Fed.
Cir. 2007).
Patent Owner asserts that inter partes reviews
are sufficiently similar in procedure to interferences
and other adjudicatory proceedings such that
Eleventh Amendment immunity is available as a
defense in both types of proceedings. See Mot. 3-8. We
agree with Patent Owner. In keeping with Vas-Cath,
we determine that inter partes reviews, like
interferences, are similar to court proceedings
inasmuch as they involve adverse parties,
examination of witnesses, cross-examination by
deposition, findings by an impartial adjudicator,
power to implement the adjudicator’s decision, the
ability of the adjudicator to set a time for filing
motions and for discovery, and application of the
Federal Rules of Evidence. See generally NeoChord,
slip op. at 6-7 (Paper 28). Patent Owner, therefore, is
entitled to rely on its Eleventh Amendment immunity
That
in inter partes reviews, as appropriate.3
3

As the Supreme Court and my concurring colleague
correctly note, in many “significant respects, inter partes review
is less like a judicial proceeding and more like a specialized
agency proceeding.” Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct.
2131, 2143 (2016). Indeed, we rely on the differences between
court and agency proceedings in reaching our determination that

59a
determination, however, does not end our inquiry in
this case.
B. Patent Owner Waived its Eleventh Amendment
Immunity
We must now decide whether, and in what
circumstances, a State may waive its Eleventh
Amendment immunity before us. Previous Board
decisions have not involved a State that filed an action
in federal court alleging infringement of the same
patent being challenged in the petition for an inter
partes review. Here, Patent Owner has filed such an
action, and, accordingly, Petitioner argues that Patent
Owner waived its Eleventh Amendment immunity by
filing such an action. Opp. 2-13. We agree with
Petitioner that the filing of an action in federal court
alleging infringement effectively waives Patent
Owner’s Eleventh Amendment immunity defense.
A State’s waiver of Eleventh Amendment
immunity in one action does not necessarily extend to
a separate action, even if the separate action involves
the same parties and the same subject matter.
Biomedical Patent Mgmt. Corp. v. Cal., Dep’t of Health
Servs., 505 F.3d 1328, 1339 (Fed. Cir. 2007) (“BPMC”).
But there is not “a bright-line rule whereby a State’s
waiver of sovereign immunity can never extend to a
Patent Owner has waived its Eleventh Amendment immunity in
this matter. See infra at 9-10. We respectfully disagree,
nevertheless, that those differences alone provide a sufficient
basis to conclude that “Congress had the power to compel States
to surrender their sovereign immunity” wholesale in a proceeding
that so closely resembles court proceedings. Fla. Prepaid
Postsecondary Educ. Expense Bd. v. Coll. Sav. Bank, 527 U.S.
627, 635 (1999).

60a
. . . separate lawsuit.” Id. Instead, the rule governing
waiver of immunity by litigation conduct rests on the
need to avoid unfairness and inconsistency, and to
prevent a State from selectively using its immunity to
achieve a litigation advantage. Lapides v. Bd. of
Regents of Univ. Sys. of Ga., 535 U.S. 613, 620 (2002);
BPMC, 505 F.3d at 1340.
The facts presented here are similar to those in
Regents of Univ. of New Mexico v. Knight, 321 F.3d
1111, 1125-26 (Fed. Cir. 2003) (“Knight”), where a
State was found to have waived its Eleventh
Amendment
immunity
as
to
compulsory
counterclaims. Specifically, the Federal Circuit
explained that “because a state as plaintiff can surely
anticipate that a defendant will have to file any
compulsory counterclaims or be forever barred from
doing so, it is not unreasonable to view the state as
having consented to such counterclaims.” Id. at 1126
(emphasis added). Similarly, a party served with a
patent infringement complaint in federal court must
request an inter partes review of the asserted patent
within one year of service of that complaint or be
forever barred from doing so. See 35 U.S.C. § 315(b).
Thus, it is reasonable to view a State that files a patent
infringement action as having consented to an inter
partes review of the asserted patent.4 See Knight, 321
F.3d at 1126. That is particularly true where, as here,
4

We do not conclude that an inter partes review is a
compulsory counterclaim under Fed. R. Civ. P. 13(a). Rather, we
determine that the rationale given in Knight, 321 F.3d at 1126,
for holding that a State waived its Eleventh Amendment
immunity as to a compulsory counterclaim similarly supports
determining that Patent Owner waived its Eleventh Amendment
immunity as to this proceeding.

61a
the State filed its patent infringement action well after
the AIA was enacted. See, e.g., Mot. 2 (indicating that
Patent Owner filed suit in November, 2014).
Further, when a State files a patent infringement
action in federal court, it is the State’s litigation
conduct that triggers the one-year statutory bar for an
inter partes review. See 35 U.S.C. § 315(b). It would be
unfair and inconsistent to allow a State to avail itself
of the federal government’s authority by filing a patent
infringement action in federal court, but then
selectively invoke its sovereign immunity to ensure
that a defendant is barred from requesting an inter
partes review of the asserted patent from a different
branch of that same federal government. See Lapides,
535 U.S. at 619-20; Tegic Commc’ns Corp. v. Bd. of
Regents of Univ. of Tex. Sys., 458 F.3d 1335, 1341-42
(Fed. Cir. 2006) (emphasizing the need “to look to the
substantive charge, not to the procedure for obtaining
relief” in order to avoid the “‘seriously unfair results’
[that] could result if a state were permitted to file suit
in a federal court and at the same time claim
immunity against the defendant’s claims arising from
the same conduct” (quoting Knight, 321 F.3d at 1125)).
In fact, Patent Owner acknowledged as much in
its motion to dismiss in Reactive Surfaces. IPR201601914, Paper 23, 18-20. In that case, Patent Owner
addressed a hypothetical (as of the date of this
decision) scenario in which a patent assertion entity
(“PAE”) assigned ownership of a patent to a State in
order to invoke Eleventh Amendment immunity and
avoid an inter partes review. Id. at 18. Patent Owner
acknowledged that the State would have to join any
infringement action, and that “[b]y voluntarily
invoking federal jurisdiction in the infringement

62a
litigation, the [S]tate entity could be deemed to have
waived its sovereign immunity to the IPR process,
which would deprive the PAE of any litigation
advantage it might have hoped for.” Id. at 19-20.
Patent Owner attempts to distinguish that
hypothetical scenario from this case because it
involved a State acting together with a PAE. Reply 4.
We fail to see, though, how a State selectively
asserting its sovereign immunity to achieve a
litigation advantage for itself, rather than a PAE, is
less unfair to a defendant.
The crux of Patent Owner’s argument in this
proceeding is that any waiver of Eleventh Amendment
immunity should be limited to the venue where Patent
Owner filed its action. Mot. 12-15 (citing A123 Sys.,
Inc. v. Hydro-Quebec, 626 F.3d 1213, 1219-20 (Fed.
Cir. 2010); Tegic, 458 F.3d at 1342, 1344-45); Reply 34. Although waiver is generally limited in this way in
our court system, which is arranged geographically, it
is not a bright-line rule. BPMC, 505 F.3d at 1339.
Indeed, “[a]n animating principle of Lapides is that a
state should not reap litigation advantages through its
selection of a forum and subsequent assertion of
sovereign immunity as a defense.” Bd. of Regents of
Univ. of Wis. Sys. v. Phoenix Int’l Software, Inc., 653
F.3d 448, 466 (7th Cir. 2011). And the authority on
which Patent Owner relies does not address waiver
with respect to separate proceedings in a single forum
created by Congress, such as the post-issuance review
proceedings under the AIA.
In any event, the cases cited by Patent Owner are
distinguishable. In those cases, a private party was
not permitted to assert claims against a State in a
different forum from the one in which the State filed

63a
its action. A123 Sys., 626 F.3d at 1219-20; Tegic, 458
F.3d at 1342-44. The private party, however, did not
suffer any substantial unfairness from that result
because the private party could still assert the exact
same claims in the forum where the State filed its
action. A123 Sys., 626 F.3d at 1216 (“A123 had an
adequate remedy because UT has waived Eleventh
Amendment immunity in the Northern District of
Texas.”); Tegic, 458 F.3d at 1344 (“It has not been
shown . . . that the adjudication of Tegic’s claims of
noninfringement and invalidity is not available in the
Texas action.”).
In contrast, here, Petitioner cannot seek an inter
partes review in the district court where Patent Owner
filed its patent infringement action. We recognize that
Petitioner may be able to assert a defense and/or
counterclaim challenging the validity of the asserted
patent in the district court where Patent Owner filed
its action. But, even though an inter partes review has
characteristics that are similar to district court
litigation, the proceedings are not the same. See
Cuozzo, 136 S. Ct. at 2143-44. Therefore, allowing
Patent Owner to assert its Eleventh Amendment
immunity in this proceeding selectively so as to bar
Petitioner from obtaining the benefits of an inter
partes review of the asserted patent would result in
substantial unfairness and inconsistency.5 See
Lapides, 535 U.S. at 620.
For the foregoing reasons, we determine that
Patent Owner has waived its Eleventh Amendment
5

Patent Owner filed patent infringement actions against
Petitioner’s customers, and then later consented to Petitioner
joining those actions as an intervenor. Ex. 1015, 2-3; Ex. 1052, 2-3.

64a
immunity by filing an action in federal court alleging
infringement of the patent being challenged in this
proceeding.
ORDER
In consideration of the foregoing, it is hereby:
ORDERED that Patent Owner’s Motion to
Dismiss is denied.
*

*

*

65a
BISK, Administrative Patent Judge, concurring.
I write separately to express my view that a state
university, having availed itself of Patent Office
procedures to secure patent rights from the public,
may not subsequently invoke sovereign immunity as a
shield against reconsideration by the Patent Office in
an inter partes review proceeding of whether the
agency improvidently granted a patent monopoly in
the first instance.1
Sovereign immunity has been found to attach to
administrative proceedings where those actions
resemble civil litigation. See Fed. Mar. Comm’n v. S.C.
State Ports Auth., 535 U.S. 743, 753-761 (2002)
(“FMC”). Inter partes review cannot be said, however,
to bear the same marks of civil litigation as previously
considered
administrative
matters.
Obvious
differences exist, for example, between the U.S. Patent
and Trademark Office’s review of a patent procured
from that agency by a State, and the Federal Maritime
Commission’s review of a State’s refusal to berth a
cruise ship at port facilities within the sovereign
borders of a State that are managed by a State
authority. See FMC, 535 U.S. at 748-49. The
adjudication at issue in FMC, after all, implicated a
power with unmistakably sovereign characteristics—
the ability of a State to control access to its territory.

1

I am mindful that resolution of the instant motion requires
us to address important constitutional issues that “are unsuited
to resolution in administrative hearing procedures,” Califano v.
Sanders, 430 U.S. 99, 109 (1977), and further highlight that
“access to the courts is essential to the decision of such questions.”
Id.

66a
Far removed from any question of territorial
control, inter partes review represents no more than
the Patent Office’s reconsideration of its initial
decision to “take[] from the public rights of immense
value, and bestow[] them upon the patentee” in the
form of a patent grant. United States v. Am. Bell Tel.
Co., 128 U.S. 315, 370 (1888). As the Supreme Court
has explained, the “basic purpose[]” of inter partes
review is “to reexamine an earlier agency decision,”
and thereby “help[] protect the public’s ‘paramount
interest in seeing that patent monopolies . . . are kept
within their legitimate scope.’” Cuozzo Speed Techs.,
LLC v. Lee, 136 S. Ct. 2131, 2144 (2016) (quoting
Precision Instrument Mfg. Co. v. Auto. Maint. Mach.
Co., 324 U.S. 806, 816 (1945)); see also MCM Portfolio
LLC v. Hewlett-Packard Co., 812 F.3d 1284, 1293 (Fed.
Cir. 2015) (explaining that “patent rights are public
rights,” and “their validity [is] susceptible to review by
an administrative agency.”). Allowing a State to
secure monopoly rights from the Patent Office, while
simultaneously foreclosing Patent Office reappraisal
of that decision via inter partes review, would thwart
“the important public interest in permitting full and
free competition in the use of ideas which are in reality
a part of the public domain.” Lear, Inc. v. Adkins, 395
U.S. 653, 670 (1969).
The essential nature of inter partes review as a
reevaluation by the Patent Office of its decision to
grant a patent, rather than as an administrative
analog to civil litigation, is evident from the relief
available, which differs both in degree and in kind
from that afforded in federal district court. At its core,
inter partes review is a circumscribed in rem
proceeding, in which the Patent Office exercises

67a
jurisdiction over the patent challenged, rather than
the parties named; “it does not implicate States’
sovereignty to nearly the same degree as other kinds
of jurisdiction.” Cent. Va. Cmty. Coll. v. Katz, 546 U.S.
356, 362 (2006). Such proceedings are authorized
solely to address whether the Patent Office should
“cancel as unpatentable 1 or more claims of a patent
only on a ground that could be raised under section
102 or 103 [of the Patent Act] and only on the basis of
prior art consisting of patents or printed publications.”
35 U.S.C. § 311(b). Once inter partes review is
commenced, the patent owner may, as a matter of
right, “file 1 motion to amend the patent,” 35 U.S.C.
§ 316(d)––“just what he would do in the examination
process.” Cuozzo, 136 S. Ct. at 2145 (citing 35 U.S.C.
§ 316(d) (2012)). No equivalent procedure is available
in the federal district courts, which assess the validity
only of static patent claims.
The ultimate remedy available from inter partes
review likewise mirrors the patent examination
process more closely than it does federal district court
litigation, where a patent monopoly may be enforced
through charges of patent infringement. Without
resort to the damages or injunctive relief that may be
awarded when infringement is proved in federal court,
the lone remedy issuable by the Patent Office in an
inter partes review proceeding is the publication, by
the Director, of a certificate canceling, confirming, or
amending the challenged claims. 35 U.S.C. § 318(b). In
addition, the freedom of the Director to “stay, transfer,
consolidat[e], terminat[e],” or otherwise determine
how either matter should proceed when a patent is
concurrently subject to an inter partes review and
another action in the Office, 35 U.S.C. § 315(d),

68a
further differentiates inter partes review from civil
litigation.
Inter partes review does not seek to resolve
relationships between parties, or even require that the
petitioner have Article III standing to proceed. See 35
U.S.C. § 311(a). Indeed, notwithstanding the absence
of an existing legal dispute concerning the patent-inquestion, so long as a prospective petitioner “is not the
owner of [that] patent,” that party is eligible, subject
to additional statutory provisions, to file a petition for
inter partes review. 35 U.S.C. § 311(a). Consistent
with this focus on the patent, rather than on the
parties, participation by the parties subsequent to
institution is not required for an inter partes review to
go forward. 35 U.S.C. § 317(a) (“If no petitioner
remains in the inter partes review, the Office may
terminate the review or proceed to a final written
decision under section 318(a).”). Even in the event of
settlement between the parties, the Board remains
free to “independently determine any question of
jurisdiction, patentability, or Office practice.” 37
C.F.R. § 42.74(a). Similarly, the Patent Office “may
intervene in a later judicial proceeding” to defend its
cancellation of an improperly granted patent, “even if
the private challengers drop out.” Cuozzo, 136 S. Ct. at
2144 (emphasis omitted); see 35 U.S.C. § 143.
Indeed, the Supreme Court has emphasized these
aspects of inter partes review in its recognition that in
“significant respects, inter partes review is less like a
judicial proceeding and more like a specialized agency
proceeding.” Cuozzo, 136 S. Ct. at 2143; see also
Achates Reference Publ’g, Inc. v. Apple Inc., 803 F.3d
652, 657-58 (Fed. Cir. 2015) (holding that procedural
limits placed on when certain parties must file for

69a
review do not relate to the Board’s ultimate authority
to invalidate a patent); 35 U.S.C. § 303(a) (“On his own
initiative, and any time, the Director may determine
whether a substantial new question of patentability is
raised by patents and publications discovered by him
or cited under the provisions of section 301 or 302.”).
To my eye, therefore, far from implicating the
sovereignty or dignity of the states, inter partes review
simply provides a streamlined, specialized mechanism
by which the Patent Office may reconsider a patent
grant and correct any mistake. Accordingly, because
inter partes review neither “walks, talks, [nor]
squawks” like a lawsuit, FMC, 535 U.S. at 757
(internal quotation omitted), I conclude that sovereign
immunity does not bar the Patent Office from
conducting inter partes review of a patent owned by a
state university. Thus, while I agree with my
colleagues that Patent Owner’s Motion to Dismiss
should be denied, I reach that conclusion for markedly
different reasons.

70a
APPENDIX D
The Eleventh Amendment to the United
States Constitution provides:
The Judicial power of the United States shall not
be construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.
35 U.S.C. § 143 provides:
§ 143. Proceedings on appeal
With respect to an appeal described in section 142,
the Director shall transmit to the United States Court
of Appeals for the Federal Circuit a certified list of the
documents comprising the record in the Patent and
Trademark Office. The court may request that the
Director forward the original or certified copies of such
documents during pendency of the appeal. In an ex
parte case, the Director shall submit to the court in
writing the grounds for the decision of the Patent and
Trademark Office, addressing all of the issues raised
in the appeal. The Director shall have the right to
intervene in an appeal from a decision entered by the
Patent Trial and Appeal Board in a derivation
proceeding under section 135 or in an inter partes or
post-grant review under chapter 31 or 32. The court
shall, before hearing an appeal, give notice of the time
and place of the hearing to the Director and the parties
in the appeal.

71a
35 U.S.C. § 311 provides:
§ 311. Inter partes review
(a) IN GENERAL.—Subject to the provisions of this
chapter, a person who is not the owner of a patent may
file with the Office a petition to institute an inter
partes review of the patent. The Director shall
establish, by regulation, fees to be paid by the person
requesting the review, in such amounts as the Director
determines to be reasonable, considering the
aggregate costs of the review.
(b) SCOPE.—A petitioner in an inter partes review
may request to cancel as unpatentable 1 or more
claims of a patent only on a ground that could be raised
under section 102 or 103 and only on the basis of prior
art consisting of patents or printed publications.
(c) FILING DEADLINE.—A petition for inter partes
review shall be filed after the later of either—
(1) the date that is 9 months after the grant of
a patent; or
(2) if a post-grant review is instituted under
chapter 32, the date of the termination of such postgrant review.
35 U.S.C. § 312 provides:
§ 312. Petitions
(a) REQUIREMENTS OF PETITION.—A petition filed
under section 311 may be considered only if—
(1) the petition is accompanied by payment of
the fee established by the Director under section
311;

72a
(2) the petition identifies all real parties in
interest;
(3) the petition identifies, in writing and with
particularity, each claim challenged, the grounds on
which the challenge to each claim is based, and the
evidence that supports the grounds for the
challenge to each claim, including—
(A) copies
of
patents
and
printed
publications that the petitioner relies upon in
support of the petition; and
(B) affidavits or declarations of supporting
evidence and opinions, if the petitioner relies on
expert opinions;
(4) the petition provides such other information
as the Director may require by regulation; and
(5) the petitioner provides copies of any of the
documents required under paragraphs (2), (3), and
(4) to the patent owner or, if applicable, the
designated representative of the patent owner.
(b) PUBLIC AVAILABILITY.—As soon as practicable
after the receipt of a petition under section 311, the
Director shall make the petition available to the
public.
35 U.S.C. § 313 provides:
§ 313. Preliminary response to petition
If an inter partes review petition is filed under
section 311, the patent owner shall have the right to
file a preliminary response to the petition, within a
time period set by the Director, that sets forth reasons
why no inter partes review should be instituted based

73a
upon the failure of the petition to meet any
requirement of this chapter.
35 U.S.C. § 314 provides:
§ 314. Institution of inter partes review
(a) THRESHOLD.—The Director may not authorize
an inter partes review to be instituted unless the
Director determines that the information presented in
the petition filed under section 311 and any response
filed under section 313 shows that there is a
reasonable likelihood that the petitioner would prevail
with respect to at least 1 of the claims challenged in
the petition.
(b) TIMING.—The Director shall determine
whether to institute an inter partes review under this
chapter pursuant to a petition filed under section 311
within 3 months after—
(1) receiving a preliminary response to the
petition under section 313; or
(2) if no such preliminary response is filed, the
last date on which such response may be filed.
(c) NOTICE.—The Director shall notify the
petitioner and patent owner, in writing, of the
Director’s determination under subsection (a), and
shall make such notice available to the public as soon
as is practicable. Such notice shall include the date on
which the review shall commence.
(d) NO APPEAL.—The determination by the
Director whether to institute an inter partes review
under this section shall be final and nonappealable.

74a
35 U.S.C. § 315 provides:
§ 315. Relation to other proceedings or actions
(a) INFRINGER’S CIVIL ACTION.—
(1) INTER PARTES REVIEW BARRED BY CIVIL
ACTION.—An inter partes review may not be
instituted if, before the date on which the petition
for such a review is filed, the petitioner or real party
in interest filed a civil action challenging the
validity of a claim of the patent.
(2) STAY OF CIVIL ACTION.—If the petitioner or
real party in interest files a civil action challenging
the validity of a claim of the patent on or after the
date on which the petitioner files a petition for inter
partes review of the patent, that civil action shall be
automatically stayed until either—
(A) the patent owner moves the court to lift
the stay;
(B) the patent owner files a civil action or
counterclaim alleging that the petitioner or real
party in interest has infringed the patent; or
(C) the petitioner or real party in interest
moves the court to dismiss the civil action.
(3) TREATMENT OF COUNTERCLAIM.—A counterclaim challenging the validity of a claim of a patent
does not constitute a civil action challenging the
validity of a claim of a patent for purposes of this
subsection.
(b) PATENT OWNER’S ACTION.—An inter partes
review may not be instituted if the petition requesting
the proceeding is filed more than 1 year after the date
on which the petitioner, real party in interest, or privy
of the petitioner is served with a complaint alleging

75a
infringement of the patent. The time limitation set
forth in the preceding sentence shall not apply to a
request for joinder under subsection (c).
(c) JOINDER.—If the Director institutes an inter
partes review, the Director, in his or her discretion,
may join as a party to that inter partes review any
person who properly files a petition under section 311
that the Director, after receiving a preliminary
response under section 313 or the expiration of the
time for filing such a response, determines warrants
the institution of an inter partes review under section
314.
(d) MULTIPLE PROCEEDINGS.—Notwithstanding
sections 135(a), 251, and 252, and chapter 30, during
the pendency of an inter partes review, if another
proceeding or matter involving the patent is before the
Office, the Director may determine the manner in
which the inter partes review or other proceeding or
matter may proceed, including providing for stay,
transfer, consolidation, or termination of any such
matter or proceeding.
(e) ESTOPPEL.—
(1) PROCEEDINGS BEFORE THE OFFICE.—The
petitioner in an inter partes review of a claim in a
patent under this chapter that results in a final
written decision under section 318(a), or the real
party in interest or privy of the petitioner, may not
request or maintain a proceeding before the Office
with respect to that claim on any ground that the
petitioner raised or reasonably could have raised
during that inter partes review.
(2) CIVIL ACTIONS AND OTHER PROCEEDINGS.—
The petitioner in an inter partes review of a claim

76a
in a patent under this chapter that results in a final
written decision under section 318(a), or the real
party in interest or privy of the petitioner, may not
assert either in a civil action arising in whole or in
part under section 1338 of title 28 or in a proceeding
before the International Trade Commission under
section 337 of the Tariff Act of 1930 that the claim
is invalid on any ground that the petitioner raised
or reasonably could have raised during that inter
partes review.
35 U.S.C. § 316 provides:
§ 316. Conduct of inter partes review
(a) REGULATIONS.—The Director shall prescribe
regulations—
(1) providing that the file of any proceeding
under this chapter shall be made available to the
public, except that any petition or document filed
with the intent that it be sealed shall, if
accompanied by a motion to seal, be treated as
sealed pending the outcome of the ruling on the
motion;
(2) setting forth the standards for the showing
of sufficient grounds to institute a review under
section 314(a);
(3) establishing procedures for the submission
of supplemental information after the petition is
filed;
(4) establishing and governing inter partes
review under this chapter and the relationship of
such review to other proceedings under this title;

77a
(5) setting forth standards and procedures for
discovery of relevant evidence, including that such
discovery shall be limited to—
(A) the deposition of witnesses submitting
affidavits or declarations; and
(B) what is otherwise necessary in the
interest of justice;
(6) prescribing sanctions for abuse of discovery,
abuse of process, or any other improper use of the
proceeding, such as to harass or to cause
unnecessary delay or an unnecessary increase in
the cost of the proceeding;
(7) providing for protective orders governing
the exchange and submission of confidential
information;
(8) providing for the filing by the patent owner
of a response to the petition under section 313 after
an inter partes review has been instituted, and
requiring that the patent owner file with such
response, through affidavits or declarations, any
additional factual evidence and expert opinions on
which the patent owner relies in support of the
response;
(9) setting forth standards and procedures for
allowing the patent owner to move to amend the
patent under subsection (d) to cancel a challenged
claim or propose a reasonable number of substitute
claims, and ensuring that any information
submitted by the patent owner in support of any
amendment entered under subsection (d) is made
available to the public as part of the prosecution
history of the patent;

78a
(10) providing either party with the right to an
oral hearing as part of the proceeding;
(11) requiring that the final determination in
an inter partes review be issued not later than 1
year after the date on which the Director notices the
institution of a review under this chapter, except
that the Director may, for good cause shown, extend
the 1-year period by not more than 6 months, and
may adjust the time periods in this paragraph in the
case of joinder under section 315(c);
(12) setting a time period for requesting joinder
under section 315(c); and
(13) providing the petitioner with at least 1
opportunity to file written comments within a time
period established by the Director.
(b) CONSIDERATIONS.—In prescribing regulations
under this section, the Director shall consider the
effect of any such regulation on the economy, the
integrity of the patent system, the efficient
administration of the Office, and the ability of the
Office to timely complete proceedings instituted under
this chapter.
(c) PATENT TRIAL AND APPEAL BOARD.—The
Patent Trial and Appeal Board shall, in accordance
with section 6, conduct each inter partes review
instituted under this chapter.
(d) AMENDMENT OF THE PATENT.—
(1) IN GENERAL.—During an inter partes review
instituted under this chapter, the patent owner may
file 1 motion to amend the patent in 1 or more of the
following ways:
(A) Cancel any challenged patent claim.

79a
(B) For each challenged claim, propose a
reasonable number of substitute claims.
(2) ADDITIONAL MOTIONS.—Additional motions
to amend may be permitted upon the joint request
of the petitioner and the patent owner to materially
advance the settlement of a proceeding under
section 317, or as permitted by regulations
prescribed by the Director.
(3) SCOPE OF CLAIMS.—An amendment under
this subsection may not enlarge the scope of the
claims of the patent or introduce new matter.
(e) EVIDENTIARY STANDARDS.—In an inter partes
review instituted under this chapter, the petitioner
shall have the burden of proving a proposition of
unpatentability by a preponderance of the evidence.
35 U.S.C. § 317 provides:
§ 317. Settlement
(a) IN GENERAL.—An inter partes review
instituted under this chapter shall be terminated with
respect to any petitioner upon the joint request of the
petitioner and the patent owner, unless the Office has
decided the merits of the proceeding before the request
for termination is filed. If the inter partes review is
terminated with respect to a petitioner under this
section, no estoppel under section 315(e) shall attach
to the petitioner, or to the real party in interest or
privy of the petitioner, on the basis of that petitioner’s
institution of that inter partes review. If no petitioner
remains in the inter partes review, the Office may
terminate the review or proceed to a final written
decision under section 318(a).

80a
(b) AGREEMENTS IN WRITING.—Any agreement or
understanding between the patent owner and a
petitioner, including any collateral agreements
referred to in such agreement or understanding, made
in connection with, or in contemplation of, the
termination of an inter partes review under this
section shall be in writing and a true copy of such
agreement or understanding shall be filed in the Office
before the termination of the inter partes review as
between the parties. At the request of a party to the
proceeding, the agreement or understanding shall be
treated as business confidential information, shall be
kept separate from the file of the involved patents, and
shall be made available only to Federal Government
agencies on written request, or to any person on a
showing of good cause.
35 U.S.C. § 318 provides:
§ 318. Decision of the Board
(a) FINAL WRITTEN DECISION.—If an inter partes
review is instituted and not dismissed under this
chapter, the Patent Trial and Appeal Board shall issue
a final written decision with respect to the
patentability of any patent claim challenged by the
petitioner and any new claim added under section
316(d).
(b) CERTIFICATE.—If the Patent Trial and Appeal
Board issues a final written decision under subsection
(a) and the time for appeal has expired or any appeal
has terminated, the Director shall issue and publish a
certificate canceling any claim of the patent finally
determined to be unpatentable, confirming any claim
of the patent determined to be patentable, and

81a
incorporating in the patent by operation of the
certificate any new or amended claim determined to be
patentable.
(c) INTERVENING RIGHTS.—Any proposed amended
or new claim determined to be patentable and
incorporated into a patent following an inter partes
review under this chapter shall have the same effect
as that specified in section 252 for reissued patents on
the right of any person who made, purchased, or used
within the United States, or imported into the United
States, anything patented by such proposed amended
or new claim, or who made substantial preparation
therefor, before the issuance of a certificate under
subsection (b).
(d) DATA ON LENGTH OF REVIEW.—The Office shall
make available to the public data describing the
length of time between the institution of, and the
issuance of a final written decision under subsection
(a) for, each inter partes review.
35 U.S.C. § 319 provides:
§ 319. Appeal
A party dissatisfied with the final written decision
of the Patent Trial and Appeal Board under section
318(a) may appeal the decision pursuant to sections
141 through 144. Any party to the inter partes review
shall have the right to be a party to the appeal.

82a
37 C.F.R. § 42.2 provides:
§ 42.2 Definitions.
The following definitions apply to this part:
Affidavit means affidavit or declaration under
§ 1.68 of this chapter. A transcript of an ex parte
deposition or a declaration under 28 U.S.C. 1746 may
be used as an affidavit.
Board means the Patent Trial and Appeal Board.
Board means a panel of the Board, or a member or
employee acting with the authority of the Board,
including:
(1) For petition decisions and interlocutory
decisions, a Board member or employee acting with
the authority of the Board.
(2) For final written decisions under 35 U.S.C.
135(d), 318(a), and 328(a), a panel of the Board.
Business day means a day other than a Saturday,
Sunday, or Federal holiday within the District of
Columbia.
Confidential information means trade secret or
other confidential research, development, or commercial
information.
Final means final for the purpose of judicial
review to the extent available. A decision is final only
if it disposes of all necessary issues with regard to the
party seeking judicial review, and does not indicate
that further action is required.
Hearing means consideration of the trial.
Involved means an application, patent, or claim
that is the subject of the proceeding.

83a
Judgment means a final written decision by the
Board, or a termination of a proceeding.
Motion means a request for relief other than by
petition.
Office means the United States Patent and
Trademark Office.
Panel means at least three members of the Board.
Party means at least the petitioner and the patent
owner and, in a derivation proceeding, any applicant
or assignee of the involved application.
Petition is a request that a trial be instituted.
Petitioner means the party filing a petition
requesting that a trial be instituted.
Preliminary Proceeding begins with the filing of a
petition for instituting a trial and ends with a written
decision as to whether a trial will be instituted.
Proceeding
proceeding.

means

a

trial

or

preliminary

Rehearing means reconsideration.
Trial means a contested case instituted by the
Board based upon a petition. A trial begins with a
written decision notifying the petitioner and patent
owner of the institution of the trial. The term trial
specifically includes a derivation proceeding under 35
U.S.C. 135; an inter partes review under Chapter 31 of
title 35, United States Code; a post-grant review under
Chapter 32 of title 35, United States Code; and a
transitional business-method review under section 18
of the Leahy-Smith America Invents Act. Patent
interferences are administered under part 41 and not
under part 42 of this title, and therefore are not trials.

84a
37 C.F.R. § 42.51 provides:
§ 42.51 Discovery.
(a) Mandatory initial disclosures.
(1) With agreement. Parties may agree to
mandatory discovery requiring the initial
disclosures set forth in the Office Patent Trial
Practice Guide.
(i) The parties must submit any agreement
reached on initial disclosures by no later than the
filing of the patent owner preliminary response
or the expiration of the time period for filing such
a response. The initial disclosures of the parties
shall be filed as exhibits.
(ii) Upon the institution of a trial, parties
may automatically take discovery of the
information identified in the initial disclosures.
(2) Without agreement. Where the parties fail to
agree to the mandatory discovery set forth in
paragraph (a)(1), a party may seek such discovery
by motion.
(b) Limited discovery. A party is not entitled to
discovery except as provided in paragraph (a) of this
section, or as otherwise authorized in this subpart.
(1) Routine discovery. Except as the Board may
otherwise order:
(i) Unless previously served or otherwise by
agreement of the parties, any exhibit cited in a
paper or in testimony must be served with the
citing paper or testimony.
(ii) Cross examination of affidavit testimony
prepared for the proceeding is authorized within
such time period as the Board may set.

85a
(iii) Unless previously served, a party must
serve relevant information that is inconsistent
with a position advanced by the party during the
proceeding concurrent with the filing of the
documents or things that contains the
inconsistency. This requirement does not make
discoverable anything otherwise protected by
legally recognized privileges such as attorneyclient or attorney work product. This
requirement extends to inventors, corporate
officers, and persons involved in the preparation
or filing of the documents or things.
(2) Additional discovery. (i) The parties may
agree to additional discovery between themselves.
Where the parties fail to agree, a party may move
for additional discovery. The moving party must
show that such additional discovery is in the
interests of justice, except in post-grant reviews
where additional discovery is limited to evidence
directly related to factual assertions advanced by
either party in the proceeding (see § 42.224). The
Board may specify conditions for such additional
discovery.
(ii) When appropriate, a party may obtain
production of documents and things during cross
examination of an opponent’s witness or during
authorized compelled testimony under § 42.52.
(c) Production of documents. Except as otherwise
ordered by the Board, a party producing documents
and things shall either provide copies to the opposing
party or make the documents and things available for
inspection and copying at a reasonable time and
location in the United States.

86a
37 C.F.R. § 42.52 provides:
§ 42.52 Compelling testimony and production.
(a) Authorization required. A party seeking to
compel testimony or production of documents or things
must file a motion for authorization. The motion must
describe the general relevance of the testimony,
document, or thing, and must:
(1) In the case of testimony, identify the
witness by name or title; and
(2) In the case of a document or thing, the
general nature of the document or thing.
(b) Outside the United States. For testimony or
production sought outside the United States, the
motion must also:
(1) In the case of testimony. (i) Identify the
foreign country and explain why the party believes
the witness can be compelled to testify in the foreign
country, including a description of the procedures
that will be used to compel the testimony in the
foreign country and an estimate of the time it is
expected to take to obtain the testimony; and
(ii) Demonstrate that the party has made
reasonable efforts to secure the agreement of the
witness to testify in the United States but has
been unsuccessful in obtaining the agreement,
even though the party has offered to pay the
travel expenses of the witness to testify in the
United States.
(2) In the case of production of a document or
thing. (i) Identify the foreign country and explain
why the party believes production of the document
or thing can be compelled in the foreign country,

87a
including a description of the procedures that will
be used to compel production of the document or
thing in the foreign country and an estimate of the
time it is expected to take to obtain production of
the document or thing; and
(ii) Demonstrate that the party has made
reasonable efforts to obtain the agreement of the
individual or entity having possession, custody,
or control of the document or thing to produce the
document or thing in the United States but has
been unsuccessful in obtaining that agreement,
even though the party has offered to pay the
expenses of producing the document or thing in
the United States.
37 C.F.R. § 42.53 provides:
§ 42.53 Taking testimony.
(a) Form. Uncompelled direct testimony must be
submitted in the form of an affidavit. All other
testimony, including testimony compelled under 35
U.S.C. 24, must be in the form of a deposition
transcript. Parties may agree to video-recorded
testimony, but may not submit such testimony
without prior authorization of the Board. In addition,
the Board may authorize or require live or videorecorded testimony.
(b) Time and location. (1) Uncompelled direct
testimony may be taken at any time to support a
petition, motion, opposition, or reply; otherwise,
testimony may only be taken during a testimony
period set by the Board.

88a
(2) Except as the Board otherwise orders,
during the testimony period, deposition testimony
may be taken at any reasonable time and location
within the United States before any disinterested
official authorized to administer oaths at that
location.
(3) Uncompelled deposition testimony outside
the United States may only be taken upon
agreement of the parties or as the Board specifically
directs.
(c) Duration. (1) Unless stipulated by the parties
or ordered by the Board, direct examination, crossexamination, and redirect examination for compelled
deposition testimony shall be subject to the following
time limits: Seven hours for direct examination, four
hours for cross-examination, and two hours for
redirect examination.
(2) Unless stipulated by the parties or ordered
by the Board, cross-examination, redirect
examination, and re-cross examination for
uncompelled direct testimony shall be subject to the
follow time limits: Seven hours for crossexamination, four hours for redirect examination,
and two hours for re-cross examination.
(d) Notice of deposition. (1) Prior to the taking of
deposition testimony, all parties to the proceeding
must agree on the time and place for taking testimony.
If the parties cannot agree, the party seeking the
testimony must initiate a conference with the Board to
set a time and place.
(2) Cross-examination should ordinarily take
place after any supplemental evidence relating to
the direct testimony has been filed and more than a

89a
week before the filing date for any paper in which
the cross-examination testimony is expected to be
used. A party requesting cross-examination
testimony of more than one witness may choose the
order in which the witnesses are to be crossexamined.
(3) In the case of direct deposition testimony, at
least three business days prior to the conference in
paragraph (d)(1) of this section, or if there is no
conference, at least ten days prior to the deposition,
the party seeking the direct testimony must serve:
(i) A list and copy of each document under
the party’s control and on which the party
intends to rely; and
(ii) A list of, and proffer of reasonable access
to, anything other than a document under the
party’s control and on which the party intends to
rely.
(4) The party seeking the deposition must file a
notice of the deposition at least ten business days
before a deposition.
(5) Scope and content—(i) For direct deposition
testimony, the notice limits the scope of the
testimony and must list:
(A) The time and place of the deposition;
(B) The name and address of the witness;
(C) A list of the exhibits to be relied upon
during the deposition; and
(D) A general description of the scope and
nature of the testimony to be elicited.

90a
(ii) For cross-examination testimony, the
scope of the examination is limited to the scope of
the direct testimony.
(iii) The notice must list the time and place
of the deposition.
(iv) Where an additional party seeks to take
direct testimony of a third party witness at the
time and place noticed in paragraph (d)(5) of this
section, the additional party must provide a
counter notice that lists the exhibits to be relied
upon in the deposition and a general description
of the scope and nature of the testimony to be
elicited.
(6) Motion to quash—Objection to a defect in
the notice is waived unless the objecting party
promptly seeks authorization to file a motion to
quash.
(e) Deposition in a foreign language. If an
interpreter will be used during the deposition, the
party calling the witness must initiate a conference
with the Board at least five business days before the
deposition.
(f) Manner of taking deposition testimony.
(1) Before giving deposition testimony, each witness
shall be duly sworn according to law by the officer
before whom the deposition is to be taken. The officer
must be authorized to take testimony under 35 U.S.C.
23.
(2) The testimony shall be taken with any
questions and answers recorded in their regular
order by the officer, or by some other disinterested
person in the presence of the officer, unless the

91a
presence of the officer is waived on the record by
agreement of all parties.
(3) Any exhibits used during the deposition
must be numbered as required by § 42.63(c), and
must, if not previously served, be served at the
deposition. Exhibits objected to shall be accepted
pending a decision on the objection.
(4) All objections made at the time of the
deposition to the qualifications of the officer taking
the deposition, the manner of taking it, the evidence
presented, the conduct of any party, and any other
objection to the deposition shall be noted on the
record by the officer.
(5) When the testimony has been transcribed,
the witness shall read and sign (in the form of an
affidavit) a transcript of the deposition unless:
(i) The parties otherwise agree in writing;
(ii) The parties waive reading and signature
by the witness on the record at the deposition; or
(iii) The witness refuses to read or sign the
transcript of the deposition.
(6) The officer shall prepare a certified
transcript by attaching a certificate in the form of
an affidavit signed and sealed by the officer to the
transcript of the deposition. Unless the parties
waive any of the following requirements, in which
case the certificate shall so state, the certificate
must state:
(i) The witness was duly sworn by the officer
before commencement of testimony by the
witness;

92a
(ii) The transcript is a true record of the
testimony given by the witness;
(iii) The name of the person who recorded the
testimony, and if the officer did not record it,
whether the testimony was recorded in the
presence of the officer;
(iv) The presence or absence of any opponent;
(v) The place where the deposition was taken
and the day and hour when the deposition began
and ended;
(vi) The officer has no disqualifying interest,
personal or financial, in a party; and
(vii) If a witness refuses to read or sign the
transcript, the circumstances under which the
witness refused.
(7) Except where the parties agree otherwise,
the proponent of the testimony must arrange for
providing a copy of the transcript to all other
parties. The testimony must be filed as an exhibit.
(8) Any objection to the content, form, or
manner of taking the deposition, including the
qualifications of the officer, is waived unless made
on the record during the deposition and preserved
in a timely filed motion to exclude.
(g) Costs. Except as the Board may order or the
parties may agree in writing, the proponent of the
direct testimony shall bear all costs associated with
the testimony, including the reasonable costs
associated with making the witness available for the
cross-examination.

93a
37 C.F.R. § 42.62 provides:
§ 42.62 Applicability of the Federal rules of
evidence.
(a) Generally. Except as otherwise provided in
this subpart, the Federal Rules of Evidence shall apply
to a proceeding.
(b) Exclusions. Those portions of the Federal
Rules of Evidence relating to criminal proceedings,
juries, and other matters not relevant to proceedings
under this subpart shall not apply.
(c) Modifications
in
terminology.
Unless
otherwise clear from context, the following terms of
the Federal Rules of Evidence shall be construed as
indicated:
Appellate court means United States Court of
Appeals for the Federal Circuit.
Civil action, civil proceeding, and action mean
a proceeding before the Board under part 42.
Courts of the United States, U.S. Magistrate,
court, trial court, trier of fact, and judge mean
Board.
Hearing means, as defined in Federal Rule of
Evidence 804(a)(5), the time for taking testimony.
Judicial notice means official notice.
Trial or hearing in Federal Rule of Evidence
807 means the time for taking testimony.
(d) In determining foreign law, the Board may
consider any relevant material or source, including
testimony, whether or not submitted by a party or
admissible under the Federal Rules of Evidence.

94a
37 C.F.R. § 42.64 provides:
§ 42.64 Objection; motion to exclude.
(a) Deposition evidence. An objection to the
admissibility of deposition evidence must be made
during the deposition. Evidence to cure the objection
must be provided during the deposition, unless the
parties to the deposition stipulate otherwise on the
deposition record.
(b) Other evidence. For evidence other than
deposition evidence:
(1) Objection. Any objection to evidence
submitted during a preliminary proceeding must be
filed within ten business days of the institution of
the trial. Once a trial has been instituted, any
objection must be filed within five business days of
service of evidence to which the objection is
directed. The objection must identify the grounds
for the objection with sufficient particularity to
allow correction in the form of supplemental
evidence.
(2) Supplemental evidence. The party relying
on evidence to which an objection is timely served
may respond to the objection by serving
supplemental evidence within ten business days of
service of the objection.
(c) Motion to exclude. A motion to exclude
evidence must be filed to preserve any objection. The
motion must identify the objections in the record in
order and must explain the objections. The motion
may be filed without prior authorization from the
Board.

95a
37 C.F.R. § 42.70 provides:
§ 42.70 Oral argument.
(a) Request for oral argument. A party may
request oral argument on an issue raised in a paper at
a time set by the Board. The request must be filed as
a separate paper and must specify the issues to be
argued.
(b) Demonstrative exhibits must be served at least
seven business days before the oral argument and filed
no later than the time of the oral argument.
37 C.F.R. § 42.72 provides:
§ 42.72 Termination of trial.
The Board may terminate a trial without
rendering a final written decision, where appropriate,
including where the trial is consolidated with another
proceeding or pursuant to a joint request under 35
U.S.C. 317(a) or 327(a).
37 C.F.R. § 42.73 provides:
§ 42.73 Judgment.
(a) A judgment, except in the case of a
termination, disposes of all issues that were, or by
motion reasonably could have been, raised and
decided.
(b) Request for adverse judgment. A party may
request judgment against itself at any time during a
proceeding. Actions construed to be a request for
adverse judgment include:
(1) Disclaimer of the involved application or
patent;

96a
(2) Cancellation or disclaimer of a claim such
that the party has no remaining claim in the trial;
(3) Concession of unpatentability or derivation
of the contested subject matter; and
(4) Abandonment of the contest.
(c) Recommendation. The judgment may include a
recommendation for further action by an examiner or
by the Director.
(d) Estoppel. (1) Petitioner other than in derivation
proceeding. A petitioner, or the real party in interest
or privy of the petitioner, is estopped in the Office from
requesting or maintaining a proceeding with respect
to a claim for which it has obtained a final written
decision on patentability in an inter partes review,
post-grant review, or a covered business method
patent review, on any ground that the petitioner
raised or reasonably could have raised during the trial,
except that estoppel shall not apply to a petitioner, or
to the real party in interest or privy of the petitioner
who has settled under 35 U.S.C. 317 or 327.
(2) In a derivation, the losing party who could
have properly moved for relief on an issue, but did
not so move, may not take action in the Office after
the judgment that is inconsistent with that party's
failure to move, except that a losing party shall not
be estopped with respect to any contested subject
matter for which that party was awarded a
favorable judgment.
(3) Patent applicant or owner. A patent
applicant or owner is precluded from taking action
inconsistent with the adverse judgment, including
obtaining in any patent:

97a
(i) A claim that is not patentably distinct
from a finally refused or canceled claim; or
(ii) An amendment of a specification or of a
drawing that was denied during the trial
proceeding, but this provision does not apply to
an application or patent that has a different
written description.
37 C.F.R. § 42.74 provides in part:
§ 42.74 Settlement.
(a) Board role. The parties may agree to settle any
issue in a proceeding, but the Board is not a party to
the settlement and may independently determine any
question of jurisdiction, patentability, or Office practice.
*

*

*

37 C.F.R. § 42.107 provides:
§ 42.107 Preliminary response to petition.
(a) The patent owner may file a preliminary
response to the petition. The response is limited to
setting forth the reasons why no inter partes review
should be instituted under 35 U.S.C. 314 and can
include supporting evidence. The preliminary
response is subject to the word count under § 42.24.
(b) Due date. The preliminary response must be
filed no later than three months after the date of a
notice indicating that the request to institute an inter
partes review has been granted a filing date. A patent
owner may expedite the proceeding by filing an
election to waive the patent owner preliminary
response.

98a
(c) [Reserved]
(d) No amendment. The preliminary response
shall not include any amendment.
(e) Disclaim Patent Claims. The patent owner
may file a statutory disclaimer under 35 U.S.C. 253(a)
in compliance with § 1.321(a) of this chapter,
disclaiming one or more claims in the patent. No inter
partes review will be instituted based on disclaimed
claims.
37 C.F.R. § 42.108 provides in part:
§ 42.108 Institution of inter partes review.
*

*

*

(c) Sufficient grounds. Inter partes review shall
not be instituted for a ground of unpatentability
unless the Board decides that the petition supporting
the ground would demonstrate that there is a
reasonable likelihood that at least one of the claims
challenged in the petition is unpatentable. The
Board’s decision will take into account a patent owner
preliminary response where such a response is filed,
including any testimonial evidence, but a genuine
issue of material fact created by such testimonial
evidence will be viewed in the light most favorable to
the petitioner solely for purposes of deciding whether
to institute an inter partes review. A petitioner may
seek leave to file a reply to the preliminary response
in accordance with §§ 42.23 and 42.24(c). Any such
request must make a showing of good cause.

99a
37 C.F.R. § 42.120 provides:
§ 42.120 Patent owner response.
(a) Scope. A patent owner may file a response to
the petition addressing any ground for unpatentability
not already denied. A patent owner response is filed as
an opposition and is subject to the page limits provided
in § 42.24.
(b) Due date for response. If no time for filing a
patent owner response to a petition is provided in a
Board order, the default date for filing a patent owner
response is three months from the date the inter partes
review was instituted.

